                       ort




  INTERNAL CONTROLS AND COMPLIANCE WITH LAWS AND
   REGULATIONS FOR THE FY 1997 DEFENSE INFORMATION
        SYSTEMS AGENCY WORKING CAPITAL FUND
                FINANCIAL STATEMENTS


Report Number 98-162                           June 24, 1998




             Office of the Inspector General
                 Department of Defense
  Additional Information and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                     OAIG-AUD (ATTN: APTS Audit Suggestions)
                     Inspector General, Department of Defense
                     400 Army Navy Drive (Room 801)
                     Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contract the Defense Hotline by calling
  (800) 4249098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

CFO                 Chief Financial Officers
CISA                Communications Information Services Activity
DBOF                Defense Business Operations Fund
DFAS                Defense Finance and Accounting Service
DJSA                Defense Information Systems Agency
DISA WESTHEM        Defense Information Systems Agency-Western Hemisphere
DMC                 Defense Megacenter
DPAS                Defense Property Accountability System
FFMIA               Federal Financial Management Improvement Act
IFAS                Industrial Fund Accounting System
                    Inspector General
::MIP               Joint Financial Management Improvement Program
OMB                 Office of Management and Budget
USGSGL              United States Government Standard General Ledger
WCF                 Working Capital Fund
                                     INSPECTOR    GENERAL
                                    DEPARTMENT    OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                    ARLINGTON. VIRGINIA 22202




                                                                                  June 24, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER) AND
                 CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY

SUBJECT: Audit Report on Internal Controls and Compliance With Laws and Regulations for
         the FY 1997 Defense Information Systems Agency Working Capital Fund
         Financial Statements (Report No. 98-162)


         We are providing this report for review and comments. The Chief Financial Officers
Act of 1990, as amended by the Federal Financial Management Act of 1994, requires financial
statement audits by the Inspector General. Our responsibility is to issue an opinion on the
financial statements. On February 27, 1998, we issued a disclaimer of opinion on the
FY 1997 Defense Information Systems Agency Working Capital Fund Financial Statements.
Our disclaimer of opinion and the principal statements are included in Appendix C. We
identified internal control weaknesses and instances of noncompliance with laws and
regulations that merit management’s attention. Part I discusses internal controls and
compliance with laws and regulations. Part II provides relevant appendixes for management’s
use.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
Directors of the Defense Information Systems Agency and the Defense Finance and
Accounting Service did not comment on a draft of this report. We request that the Defense
Information Systems Agency and the Defense Finance and Accounting Service provide
comments on the recommendations, as well as the material weaknesses identified in
Appendix A by July 24, 1998.

        We appreciate the courtesies extended to the audit staff. Questions on the audit should
be directed to Mr. David F. Vincent, Audit Program Director, at (703) 604-9110 (DSN
664-91 lo), e-mail dvincent@dodig.osd.mil, or Mr. John A. Richards, Audit Project Manager,
at (703) 604-9133 (DSN 664-9133), e-mail jrichards@dodig.osd.mil.       See Appendix F for the
report distribution. The audit team members are listed inside the back cover.




                                                David K. Steensma
                                         Deputy Assistant Inspector General
                                                   For Auditing
                        Offke of the Inspector General, DOD

Report No. 98-162                                                         June 24, 1998
  (Project No. 8FH-2003.01)

           Internal Controls and Compliance With Laws and
        Regulations for the FY 1997 Defense Information Systems
          Agency Working Capital Fund Financial Statements

                                Executive Summary

Introduction. The Chief Financial Officers Act of 1990, as amended by the Federal
Financial Management Act of 1994, requires an annual audit of revolving funds such as
the Defense Information Systems Agency Working Capital Fund (the Fund). The
Chief Financial Officers Act of 1990 prescribes the responsibility of management and
auditors with respect to the financial statements, internal controls, and compliance with
laws and regulations. In FY 1991, the revolving funds were consolidated to form the
Defense Business Operations Fund. In December 1996, the Under Secretary of
Defense (Comptroller) started a process to restructure the Defense Business Operations
Fund into eight separate working capital funds. The Inspector General, DOD, is
responsible for auditing and rendering an opinion on the financial statements, for
FY 1997 and subsequent years, of the eight working capital fund reporting entities.

The Fund is one of the eight working capital fund reporting entities. The Defense
Information Systems Agency provides communication and information services,
common-user computer processing for the DOD and others. In FY 1997, the Defense
Information Systems Agency reported assets and liabilities valued at $880 million and
$545.4 million, respectively. Revenue from operations was $2,449.7 million. The
program manager responsible for this fund is the Director, Defense Information
Systems Agency. The Defense Information Systems Agency and the Defense Finance
and Accounting Service are responsible for establishing and maintaining adequate
internal controls and for complying with applicable laws and regulations. Our
responsibility is to express an opinion on the financial statements based on our audit,
and to determine whether internal controls were adequate and whether management
complied with applicable laws and regulations.

Audit Objectives. The overall audit objective was to determine whether the FY 1997
Defense Information Systems Agency Defense-Wide Working Capital Fund Financial
Statements are presented fairly and in accordance with Office of Management and
Budget Bulletin No. 94-01, “Form and Content of Agency Financial Statements,”
November 16, 1993, as modified by Office of Management and Budget Bulletin
No. 97-01, “Form and Content of Agency Financial Statements,” October 16, 1996.
We also assessed internal controls and compliance with laws and regulations. Our
review provided a reasonable basis for determining the adequacy of the internal
controls and compliance with laws and regulations as they relate to the financial
statements.

Disciaimer of Opinion. We were unable to render an opinion on the FY 1997 Fund’s
Financial Statements because the scope of audit was limited. The scope limitation
affected our audit work as follows:
       l   Deficiencies in DOD accounting systems resulted in substantial undistributed
           collections and undistributed disbursements for the Defense Megacenters.
           The undistributed amounts were allocated by the Defense Finance and
           Accounting Service to the Accounts Receivable balance and the Accounts
           Payable balance. As a result, at least $435.1 million of the balances were
           unverifiable.

       l   We were unable to reconcile the beginning and ending consolidated balances
           for the Property, Plant, and Equipment account. We requested that Defense
           Information Systems Agency personnel review the financial statement
           balances and explain changes; however, they were unable to reconcile the
           changes of $78.5 million shown on the financial statements with the
           beginning and ending balances.

Internal Controls. Internal controls need to improve accounting for and managing
resources, ensuring compliance with laws and regulations, and ensuring that the
financial statements are free of material misstatements. The Defense Finance and
Accounting Service needs to improve the processing and reconciliation of undistributed
transactions (Finding A). In addition, management needs to strengthen internal
controls over accounting for and tracking property, plant, and equipment (Finding B).
Our review would not necessarily disclose all reportable conditions that might also be
considered material weaknesses. See Appendix A for details on the management
control program.

Compliance With Laws and Regulations. Management generally complied with laws
and regulations related to the financial statements. However, im roved compliance is
needed for the $50 million in reported contingent liabilities, the D7 million in accrued
sick leave for the Communications Information Services Activity, and in accounting for
the unbillable costs of services for the Defense Megacenters (Finding C). Finally, the
financial management systems did not comply with Federal requirements, applicable
Federal accounting standards, and the U.S. Government Standard General Ledger at
the transaction level. With respect to items not tested, we found nothing that caused us
to believe that management had not complied in all material respects with the
provisions previously identified.

Summary of Recommendations. The Director, Defense Finance and Accounting
Service, should proceed with corrective actions for the reported material weakness
regarding the processing of undistributed and unmatched cross disbursing and Interfund
transactions. The Director, Defense Information Systems Agency, as soon as feasible,
should reconcile the records supporting the undistributed balances with the accounting
records. The Director? Defense Information Systems Agency, should also improve
interfaces and reconciliations between the Defense Property Accountability System and
the general ledger accounting system so that summary level data in the general ledger is
supported by detailed data in the Defense Property Accountability System. Finally, the
Director, Defense Information Systems Agency, should implement the accounting
standards and correct financial statements with regard to contingent liabilities, accrual
of sick leave, and accrual of costs for services.

Management Comments. The Directors of the Defense Information Systems Agency
and the Defense Finance and Accounting Service did not respond to a draft of this
report. We request that the Director, Defense Finance and Accounting Service, and the
Director, Defense Information Systems Agency, provide comments on the final report
by July 24, 1998.


                                            ii
Table of Contents
Executive Summary                                                       i

Part I - Audit Results
      Audit Background
      Audit Objectives

Part I.A. - Review of Internal Controls
      Introduction
      Reportable Conditions
      Finding A. Undistributed Collections and Disbursements
      Finding B. Accounting for Property, Plant, and Equipment

Part LB. - Review of Compliance With Laws and Regulations
      Introduction                                                     16
      Material Noncompliances                                          16
      Finding C. Implementation of Accounting Guidance                 19

Part II - Additional Information
      Appendix A. Audit Process
         Scope
         Methodology
         Management Control Program
      Appendix B. Prior Audit Reports
      Appendix C. Principal Statements, Footnotes, and Audit Opinion
      Appendix D. Management and Legal Representation Letters
      Appendix E. Laws and Regulations Reviewed
      Appendix F. Report Distribution
Part I - Audit Results
Audit Background
Introduction. The Chief Financial Officers (CFO) Act of 1990, as amended by the
Federal Financial Management Act of 1994, requires annual audits of funds such as the
Defense Information Systems Agency Working Capital Fund (the Fund). The CFO
Act of 1990 prescribes the responsibility of management and auditors with respect to
the financial statements, internal controls, and compliance with laws and regulations.
The legislation requires financial statement audits by the Inspectors General and
prescribes the responsibility of management and the auditors with respect to the
financial statements, internal controls, and compliance with laws and regulations. The
Defense Information Systems Agency (DISA) and the Defense Finance and Accounting
Service (DFAS) are jointly responsible for the information contained in the DISA
Working Capital Fund Financial Statements for the fiscal years 1997 and 1996. Our
responsibility is to render an opinion on those statements based on our audit. The
DISA provides communication and information services and common-user computer
processing for the DOD and others. In FY 1997, DISA reported assets and liabilities
valued at $880 million and $545.4 million, respectively. Revenue from operations was
$2,449.7 million.

Accounting Policies. The DISA Working Capital Fund (WCF) Financial Statements
for the fiscal years 1997 and 1996 were to be prepared in accordance with the Office of
Management and Budget (OMB) Bulletin 94-01, “Form and Content of Agency
Financial Statements,” November 16, 1993, as supplemented by OMB Bulletin 97-01,
“Form and Content of Agency Financial Statements,” October 16, 1996. These
bulletins incorporate the concepts and standards contained in the Statements of Federal
Accounting Concepts and Standards recommended by the Federal Accounting
Standards Board, which are approved by the Secretary of the Treasury; the Director,
OMB; and the Comptroller General of the United States. Footnote 1 of the DISA
Defense-Wide WCF Financial Statements discusses the significant accounting principles
used to prepare the financial statements.

Disclaimer of Opinion. We were unable to render an opinion on the FY 1997 Fund’s
Financial Statements because the scope of audit was limited. The scope limitation
affected our work as follows:

       l   Deficiencies in DOD accounting systems resulted in substantial undistributed
           collections and undistributed disbursements for the Defense Megacenters
           (DMCs). The undistributed amounts were allocated by DFAS to the
           Accounts Receivable balance and the Accounts Payable balance. As a result,
           significant portions of the balances were unverifiable.

       l   We were unable to reconcile the beginning and ending consolidated balances
           for the Property, Plant, and Equipment account. We requested that Defense
           Information Systems Agency personnel review the financial statement
           balances and explain changes; however, they were unable to reconcile the
           changes shown on the financial statements with the beginning and ending
           balances.




                                            2
We reviewed the internal controls of the Fund and assessed compliance with the laws
and regulations related to the financial statements. See Appendix C for the Principal
Statements, Footnotes, and the Audit Opinion.

Working Capital Funds. A WCF is a revolving fund that operates as an accounting
entity. Within each WCF, there are business areas or activity groups, such as Supply
Management, that are financed through customer reimbursement rather than direct
appropriations. Assets of each business area are capitalized under the WCF and most
income is derived from offsetting collections derived from fund operations.

Before FY 1992, the DOD operated a significant number of commercial and industrial
facilities under a revolving fund concept. In FY 1992, the revolving funds were
consolidated to form the Defense Business Operations Fund (DBOF). The Inspector
General (IG), DOD, was responsible for auditing and rendering an opinion on the
DBOF consolidated financial statements. In December 1996, the Under Secretary of
Defense (Comptroller) restructured the DBOF into separate WCFs.


Audit Objectives
The overall audit objective was to determine whether the FY 1997 DISA WCF
Financial Statements are presented fairly and in accordance with OMB Bulletin
No. 94-01, as modified by OMB Bulletin No. 97-01. We also assessed internal
controls and compliance with laws and regulations. Our review provided a reasonable
basis for determining the adequacy of the internal controls and compliance with laws
and regulations as they relate to the financial statements. Part I.A. contains our report
on internal controls. Part LB. contains our report on compliance with laws and
regulations. Appendix A provides discussion on scope, methodology, auditing
standards, accounting principles, and management control program. Appendix B
provides a summary of prior audit coverage.




                                            3
Part I.A. - Review of Internal Controls
Review of Internal Controls




Introduction

      Audit Responsibilities. Our audit objective was to determine whether controls
      over transactions supporting the accounts in the FY 1997 facial    statements
      were adequate to ensure that the accounts were free of material misstatements.
      In planning and performing our audit of the Fund accounts for the year ended
      September 30, 1997, we evaluated the internal controls. We performed this
      evaluation to:

             l   determine the auditing procedures necessary to express an opinion on
                 the financial statements; and

             l   determine whether internal controls had been established.

      Management Responsibilities. Management is responsible for establishing and
      maintaining the internal controls of the Fund. The responsibility requires
      management to make estimates and judgments to assess the expected benefits
      and related costs of internal control policies and procedures. The objectives of
      an internal control structure are to provide management with reasonable but not
      absolute assurance that:

             l   transactions are properly recorded and accounted for in order to
                 prepare reliable financial statements and to maintain accountability
                 over assets;

             l   funds, property, and other assets are safeguarded against waste, loss,
                 unauthorized use, and misappropriation; and

             l   transactions, including those related to obligations and costs, are
                 executed in compliance with laws and regulations that could have a
                 direct and material effect on the financial statements, and are in
                 compliance with any other laws and regulations that the OMB, entity
                 management, or the Inspector General, DOD, have identified as being
                 significant for objectively measuring and evaluating compliance.

      Internal Control Elements. DOD Directive 5010.38, “Management Control
      Program,” August 26, 1996, and DOD Instruction 5010.40, “Management
      Control Program Procedures, n August 28, 1996, require management to
      establish and maintain a comprehensive management control system, including
      internal controls, and monitor and report on the system. The internal control
      structure consist of three elements.

             l   Control environment is the collective effort of various factors on
                 establishing, enhancing, or mitigating the effectiveness of specific
                 policies and procedures. Such factors include management’s
                 philosophy and operating style, the entity’s organizational structure,
                 and personnel policies and practices. The control environment




                                           6
                                                         Review of Internal Controls


               reflects the overall attitude, awareness, and actions of management
               concerning the importance of controls and the emphasis placed on
               them by the entity.

           l   Accounting and related systems are those methods and records
               established to identify, assemble, analyze, classify, record, and report
               on the entity’s transactions and to maintain accountability for the
               related assets and liabilities.

           l   Control procedures are the policies and procedures in addition to the
               control environment and accounting and related systems that
               management has established to provide reasonable assurance that
               specific entity objectives will be achieved.


Reportable Conditions
     Our review of the internal controls for the FY 1997 Fund’s Financial Statements
    disclosed material internal control weaknesses as defined by DOD Directive
    5010.38. We also identified conditions that we considered to be reportable
    under OMB Bulletin No. 93-06, “Audit Requirements for Federal Financial
    Statements, * January 8, 1993, as modified by OMB Bulletin No. 98-04,
     “Addendum to OMB Bulletin No. 93-06,” January 16, 1998. OMB Bulletin
    No. 98-04 was effective for financial statements for the year ended
    September 30, 1997. To implement the required changes, OMB issued a
     memorandum on September 9, 1997, providing implementation guidelines. In
    planning and performing our audit tests, we considered the implementation
    guidelines issued September 9, 1997. Reportable conditions are significant
    deficiencies in the design or operation of the internal controls that, in our
    judgment, could adversely affect the organization’s ability to effectively control
    and manage its resources and to ensure the preparation of reliable and accurate
    financial information for use in managing and evaluating operational
    performance. A material weakness is a reportable condition in which the design
    or operations of the internal controls do not reduce to a relatively low level the
    risk that errors or irregularities could occur. Such errors or irregularities would
    occur to an extent that would be material to the statements being audited, and
    would not be detected within a timely period by employees in the normal course
    of performing their functions.

    Our consideration of the internal controls would not necessarily disclose all
    reportable conditions and would not necessarily disclose all reportable
    conditions that are considered to be material weaknesses. See Appendix A for
    management controls assessed.

    DISA Material and Reportable Conditions. Internal controls for the Fund
    were not adequate. A material internal control weakness existed in the
    processing and reporting of undistributed collections and disbursements
    (Finding A). As a result, the Accounts Receivable and Accounts Payable
    balances of the Defense Megacenters (DMCs) were unverifiable. Another
    material internal control weakness was accounting for Property, Plant, and




                                         7
Review of Internal Controls


      Equipment of the DMCs (Finding B). The inadequacy of crosswalk support or
      audit trail provided by DFAS Cleveland Center for the DMCs Statement of
      Cash Flows was a reportable internal control weakness. Because of the
      inadequacies in internal controls, we could not determine whether all errors
      were detected in the accounts involved; therefore, we could not determine
      whether the account balances were fair and reasonable.

      Management Actions. The internal control weaknesses were a major factor in
      the disclaimer of opinion issued for the FY 1997 DISA Defense-Wide WCF
      Financial Statements. Both the Director, DISA, and Chief Financial Officer,
      DISA, candidly recognized the extent of the deficiencies in the reporting of
      Accounts Receivable and Accounts Payable balances, as cited in the FY 1997
      Management Representation Letter. See Appendix D for the management
      representation letter. The Defense Finance and Accounting Service has
      undertaken corrective actions addressing the weakness in processing
      undistributed collections and disbursements. Similarly, DISA has undertaken
      corrective actions intended to address the weakness in accounting for Property,
      Plant, and Equipment.




                                          8
       Finding A. Undistributed                       Collections and
       Disbursements
       DMCs undistributed collections and disbursements were not reconciled
       with the reporting entity’s accounting records. Specifically, the fiscal
       yearend balances in these accounts were netted against Accounts
       Receivable and Accounts Payable balances reported in the financial
       statements. Because the accounting details for the consolidated data
       reported to the Department of the Treasury were not concurrently
       available to the reporting entity and reports to the Department of the
       Treasury bypassed the financial controls of the reporting entity, the
       accounting systems and procedures were not adequate to enable DFAS to
       reconcile undistributed balances. As a result, the Accounts Receivable
       and Accounts Payable balances were reduced a total of $435.1 million,
       and were unverifiable and unauditable.

DOD Guidance. The DOD Regulation 7000.14-R, “Department of Defense
Financial Management Regulation,” provides guidance for treatment of
undistributed balances of the DBOF on the CFO statements but does not provide
explicit guidance for the treatment of such balances in, for example, working
capital funds. The DBOF guidance exists even though DBOF was discontinued
in December 1996. The DOD Regulation 7000.14-R, volume 4, “Accounting
Policy and Procedures, n chapter 2, “Accounting for Cash and Fund Balances
with Treasury, n January 1995, indicates that general guidance for using
undistributed accounts will be published later. The DOD Regulation 7000.14-R,
volume 1lB, “Reimbursable Operations, Policy and Procedures--Defense
Business Operations Fund, chapter 54, “Cash, Receivables, Advances, and
Cash Management, n December 1994, provides that remaining balances in
Undistributed Collections and Undistributed Disbursements accounts for the
DBOF shall be transferred to Accounts Receivable and Accounts Payable,
respectively. DOD Regulation 7000.14-R, volume 6, “Reporting Policy and
Procedures, n chapter 6, “Form and Content of Audited Financial Statements, ”
January 1998, although not referring to undistributed balances directly, provides
that differences between the Fund Balance with Treasury reported in the CFO
statements and the amount reported on Financial Management Service Form
2108 “Year End Closing Statement” must be explained.

The DOD guidance for DBOF treatment of undistributed accounts was selected
for use in preparing the current fiscal year Statement of Financial Position.
Transferring the Undistributed Collections credit balance of $97.7 million to the
existing DMCs Accounts Receivable debit balance of $165.7 million produced a
closing debit balance of $68 million. Similarly transferring the Undistributed
Disbursements debit balance of $337.4 million to the existing DMCs Accounts
Payable credit balance of $287.1 million produced a closing debit balance of
$50.3 million.

The effect of transferring the Undistributed Collections balance to Accounts
Receivable was to reduce the Consolidated Accounts Receivable balance by
18.4 percent ($97.7 million of $530.6 million). The effect of transferring the




                                    9
Finding A. Undistributed Collections and Disbursements


      Undistributed Disbursements balance to Accounts Payable was to reduce the
      Consolidated Accounts Payable balance by 42.1 percent ($337.4 million of
      $80 1.1 million).

      DFAS Cleveland could provide no information regarding the make-up of the
      undistributed balances except that they were mostly attributable to problems
      involving cross disbursing and Interfund data. Therefore, the effects of
      undistributed balances on this audit are that 18.4 percent of the value of
      Consolidated Accounts Receivable and 42.1 percent of the value of
      Consolidated Accounts Payable are unauditable.

      DFAS has reported the processing of undistributed and unmatched cross
      disbursing and Interfund transactions as a DOD-wide problem and as a material
      weakness in its FY 1997 Annual Statement of Assurance. The target date for
      correction of the weakness is FY 1999.


Recommendations for Corrective Action
      A. 1. We recommend that the Director, Defense Finance and Accounting
      Service, proceed with corrective actions regarding the reported material
      weakness in the processing of undistributed and unmatched cross disbursing and
      Interfund transactions.

      A.2. We recommend that the Director, Defense Information Services Agency,
      in conjunction with the Director, Defense Finance and Accounting Service,
      reconcile the transactions in the Undistributed Collections and Undistributed
      Disbursements accounts of the Defense Megacenters with the entity’s accounting
      records.


Management Comments Required
      Neither the Defense Finance and Accounting Service nor the Defense
      Information Systems Agency commented on a draft of this report. We request
      that both organizations provide comments on the final report.




                                         10
       Finding B. Accounting for Property,
       Plant, and Equipment
       The Property, Plant, and Equipment account balances could not be
       tracked during the fiscal year. Specifically, the beginning balance of
       DMCs equipment could not be reconciled to the ending balance, and the
       monthly trial balance could not be reconciled from month to month or to
       the DMCs property book, Defense Property Accountability System
       (DPAS). A defective electronic interface between the DPAS and the
       general ledger system caused incorrect postings to depreciation and fixed
       asset accounts. In addition, regular periodic reconciliations were not
       performed to correct the errors. The result was that we were unable to
       audit the Property, Plant, and Equipment line item.

Background. The Property, Plant, and Equipment line item on the
Consolidated Statement of Fmancial Position ($226.7 million) represents
26 percent of the DISA WCF total assets. It equals the sum of the DMCs and
the Communications Information Services Activity (CISA) Property, Plant, and
Equipment values, $198 million and $28.7 million, respectively.

The CISA equipment is maintained, accounted for, and reported by the Defense
Information and Technology Contracting Office. The reported balance is
derived from the Performance Asset Management system, a module of the
Defense Information and Technology Contracting Office accounting system,
Financial Accounting Management Information System. The Performance
Asset Management system maintains acquisition data, tracks depreciation, and
produces summary reports. The Defense Information and Technology
Contracting Office reconciled the Performance Asset Management account
balances to the general ledger at year’s end.

Each of the 16 DMCs maintained and reported Property, Plant, and Equipment,
by using DPAS. DPAS was implemented to record the acquisition cost, to
accrue depreciation, and to report the value of all capital assets. An electronic
interface between DPAS and the DMCs accounting system, Industrial Fund
Accounting System (IFAS), was designed to facilitate postings to the general
ledger accounts. Via the interface, all DPAS transactions are to be
electronically posted directly to both the individual Defense Megacenter and to
aggregate DMCs trial balances in IFAS.

Interface Problems. According to DISA officials, DPAS, a single entry
property management system, does not properly interface with double entry
accounting systems like IFAS. This defective interface caused incorrect
postings to general ledger accounts (fixed assets, software, depreciation, assets
in use, assets not in use). DISA personnel had difficulty in reconciling their
ledgers with DPAS and did not understand why the interface was defective.




                                    11
Finding B. Accounting for Property, Plant, and Equipment


      Reconciliation Efforts. Although DISA and DFAS personnel were aware of
      the interface problems described, efforts to reconcile DPAS and IFAS variances
      were not consistent. Financial personnel at one of the DMCs attempted a
      monthly reconciliation, during the year, but were unsuccessful and thus,
      ineffective, because of their inexperience with DPAS.

      After inventorying DMCs capital equipment, DISA determined that the DPAS
      balances were generally correct. Similarly, from our inventory of samples of
      DPAS equipment, we concluded the equipment quantities data were generally
      accurate. On two occasions during FY 1997, DFAS accountants made
      correcting entries to the Property, Plant, and Equipment accounts in order to
      match them with the DPAS balances, but because the interface was the source
      of the errors, the imbalances continued to occur. The DFAS accountants did
      not make an adjusting entry at the year-end, and, as a result, the IFAS balance
      was $2.1 million less than DPAS.

      Accounting Guidance. DOD Regulation 7ooO. 14-R, volume 6, chapter 6,
      requires the accurate representation of Property, Plant, and Equipment balance
      on line 1.k of the Statement of Financial Position.

      Potential Corrective Actions. We acknowledge that these issues were recently
      reviewed by the General Accounting Office Report No. AIMD-97-150 (OSD
      Case 1444), “DOD’S Approach to Financial Control Over Property Needs
      Structure,” September 1997. See Appendix B for discussion of this report.

      During our audit, DISA financial analysts, logistics specialists, and computer
      programmers were collaborating to determine the correct computer mapping for
      the electronic interface between DPAS and IFAS. In addition, the Director,
      DISA, issued draft procedures for reconciling the individual and consolidated
      DMCs property balances with trial balance accounts. Since neither of the
      efforts has been completed, followup will be required to determine their
      effectiveness in subsequent reporting.

      Because efforts at tracking property balances during the period, reconciling
      beginning and ending balances, and making account balance comparisons
      between the current and prior periods were ineffective when using IFAS account
      balances, we were unable to verify 87 percent, or $198 million, of the reported
      value of DISA Property, Plant, and Equipment.


Recommendation for Corrective Action
      B. We recommend that the Director, Defense Information Systems Agency,
      establish procedures for at least bimonthly reconciliation of Defense Property
      Accountability System balances with Industrial Fund Accounting System trial
      balances.




                                          12
                    Finding B. Accounting for Property, Plant, and Equipment


Management Comments Required
    The Defense Information Systems Agency did not comment on a draft of this
    report. We request the agency to provide comments on the final report.




                                      13
Part I.B. - Review of Compliance with
Laws and Regulations
Review of Compliance With Laws and Regulations



Introduction
      We evaluated the Fund’s Financial Statements for material instances of
      noncompliance with laws and regulations for the year ending September 30,
      1997. Our audit objective was to assess compliance with laws and regulations
      for transactions and events that could have a direct and material effect on the
      financial statements. Such tests are required by the Chief Financial Officers Act
      of 1990, as amended by the Federal Financial Management Act of 1994. We
      reviewed compliance with laws and regulations to obtain reasonable assurance
      that the financial statements were free of material misstatements, not to render
      an opinion on overall compliance with such provisions. See Appendix E for a
      list of the laws and regulations we reviewed. The Chief Financial Officer,
      DOD; Director, DISA; and the Director, DFAS, are all responsible for ensuring
      compliance with laws and regulations applicable to the Fund.


Material Noncompliances
      Material instances of noncompliance are failures to follow requirements, laws,
      or regulations that would cause us to conclude that the aggregation of the
      misstatements resulting from those failures is either material to the financial
      statements or that the sensitivity of the matter would cause others to perceive it
      as significant. The results of our reviews indicate that, with exceptions,
      management generally complied with the selected provision of laws and
      regulations as they pertain to the accuracy of the financial statements. The
      noncompliance with guidance regarding contingent liabilities of the CISA was
      material.

      DISA Compliance Issues. We identified instances of noncompliance with
      regulations within the Fund (see Finding C) pertaining to CISA contingent
      liabilities, the unbillable costs of services provided to DMCs customers, and the
      accrual of sick leave expense for CISA employees. Additional regulations that
      were not complied with relate to the description for DMCs capital leases in the
      financial statements, as well as the regulation related to the internal control
      weaknesses addressed in Part I.A., namely, DOD Regulation 7000.14-R,
      volume 1, “General Financial Management Information, Systems, and
      Requirements, n chapter 3, “Accounting Systems Conformance, Evaluation, and
      Reporting, n May 1993.

      DMCs Capital Lease Compliance. Footnote 0 on the Fund’s Statements
      indicates “no capital leases related to DISA-DWCF operations.” However,
      capital leases valued at $2.9 million were included in Property, Plant, and
      Equipment balances; and the FY 1997 depreciation charge was $529,CKKl. No
      description of capital leases was provided in Note 18 as required by the DOD
      Regulation 7000.14-R, volume 6, chapter 6.

      Federal Financial Management Improvement Act of 19% Compliance. On
      September 9, 1997, the OMB issued a memorandum, “Implementation
      Guidance for the Federal Financial Management Improvement Act (FFMIA)
      of 1996. n The FFMIA requires each Federal agency to implement and maintain

                                           16
                            Review of Compliance With Laws and Regulations


financial management systems that comply substantially with Federal financial
management systems requirements, applicable Federal accounting standards,
and the U.S. Government Standard General Ledger (USGSGL) at the
transaction level. The FFMIA also requires that we report on agency
compliance with these requirements.

These requirements are already well-established in Federal policy documents to
include:

       l   OMB Circular No. A-127, “Financial Management Systems,”
           July 23, 1993, establishes Government policy for developing,
           evaluating, and reporting on financial management systems. It
           requires financial management systems to provide complete, reliable,
           consistent, timely, and useful financial management information. To
           achieve this goal, DOD and other Federal agencies must establish and
           maintain a single, integrated financial management system, that uses
           the USGSGL.

       l   OMB Circular No. A-134, “Financial Accounting Principles and
           Standards,” May 20, 1993, establishes policies and procedures for
           approving and publishing financial accounting principles and
           standards. It also establishes the policies to be followed by Executive
           agencies and OMB in seeking and providing interpretations and other
           advice related to the standards.

       l   The JFMIP Federal Financial Management Information Program
           (JFMIP) is a cooperative undertaking of the OMB, the Department of
           the Treasury, and the Office of Personnel Management, working in
           cooperation with each other and with operating agencies to improve
           financial management practices throughout the Government. The
           JFMIP has published a series of “Federal Financial Management
           System Requirements. n

       l   The “Core Financial System Requirements,” September 1995, which
           are a part of the JFMIP’s “Federal Financial Management System
           Requirements, n establish standard requirements for the foundation
           modules of an agency’s integrated financial management system.
           These requirements state that a financial management system must
           support the partnership between program and financial managers and
           assure the integrity of information for decisionmaking and
           performance measurements.

As part of our audit to obtain reasonable assurance that the FY 1997 Fund’s
Financial Statements were free of material misstatement, we performed tests of
their compliance with certain provisions of laws and regulations when
noncompliance with these laws and regulations could have a direct and material
effect on determining amounts in the financial statements. We also tested
compliance with certain other laws and regulations specified in OMB
Bulletin 93-06, as modified by OMB Bulletin No. 98-04.

For FY 1997, the financial management systems that support the Fund’s
Financial Statements were not in substantial compliance with the requirements
of the FFMIA. The DOD financial management systems comprise multiple


                                     17
Review of Compliance With Laws and Regulations


      finance, accounting, and feeder systems that are the responsibility of DFAS, the
      Military Departments, and the Defense agencies. DOD financial management
      systems were unable to produce auditable and timely financial statements for
      FY 1997 primarily because the accounting and related systems were not
      designed for financial reporting. The financial condition of DOD and its
      operating results for FY 1997 were not verifiable, and DOD had no assurance
      that it was properly managing its resources.

      Weaknesses in DOD accounting systems have been reported since the inception
      of the DBOF. Data from the deficient systems were used to prepare the Fund
      financial statements. DFAS and DISA acknowledged that the primary
      accounting and financial systems used to report the financial statement
      information for the Fund financial statements did not comply with accounting
      requirements.

      Until the migratory strategy is established and final accounting systems selected,
      the time frames and costs are unknown for achieving accounting systems that
      comply with the Chief Financial Officers Act and Federal Financial
      Management Improvement Act of 1996 and for producing auditable financial
      statements.




                                          18
       Finding C. Implementation                            of
       Accounting Guidance
       Accrual accounting guidance was not followed with regard to Contingent
       Liabilities, service costs to customers, and the accrual of sick leave for
       employee expense. The reported Contingent Liability should not have
       been posted in FY 1996. The unbilled FY 1996 service costs to
       customers for which reimbursement was not expected should have been
       expensed in FY 1996. Accrued sick leave for employees should not be
       expensed until it has been used. By not following guidance in these
       areas, the net effects on the Consolidated Statements of Operations and
       Changes in Net Position are a $3.5 million overstatement of FY 1997
       Cost of Goods Sold expense and a $3 1.8 million overstatement of
       FY 1996 Cost of Goods Sold expense. In addition, Contingent
       Liabilities and Accrued Annual Leave are overstated by $28.5 million
       and $6.8 million, respectively, on the Consolidated FY 1997 Statement
       of Financial Position.

Contingent Liability. A contingent liability was improperly posted in FY 1996
for the anticipated costs for the CISA to convert from the Defense Commercial
Telecommunications Network to the Defense Information System Network;
there was a corresponding debit to program expenses. Accounting guidance
requires that the existence of a past event giving rise to a liability is essential to
the proper recognition of contingent liability. However, no such events could
be documented. As a result, expenses to convert to the Defense Information
System Network that should have been posted in FY 1997 or later were posted
in FY 1996. Specifically, ex enses were overstated by $50.1 million in
FY 1996 and understated by P2 1.6 million in FY 1997. Also the ending
FY 1997 Contingent Liability balance reflected an overstatement of
$28.5 million.

In FY 1996, Program Budget Decision 417 specified that DISA was to retain
the $50.1 million in savings realized from the extension of the Defense
Telecommunications Network contract from March 1996 to June 1997. DISA
was to retain the savings rather than reduce the FY 1997 customer rates, in
order to offset the transition costs of $78.6 million associated with network
modernization and equipment investment. As of the end of FY 1996, none of
the $50.1 million was spent or obligated. Because of disbursements in
FY 1997, the ending FY 1997 Contingent Liability balance was reduced to
$28.5 million. As of the end of FY 1997, no justifying past events or
obligations against the remaining Contingent Liability balance were
documented.

Liabilities are described in the DOD Regulation 7000.14-R, volume 1,
chapter 3, under Key Accounting Requirement Number 5, “Accrual
Accounting, * May 1993, which specifies: “When liabilities are incurred as
work is performed rather than when deliveries are made, accruals must be
recorded from performance reports for the affected accounting period.”
Contingent liabilities are discussed in the Federal Accounting Standards
Advisory Board Original Statements,” volume 1, “Statements of Federal
Financial Accounting Concepts and Standards,” No. 5, “Accounting for

                                     19
Finding C. Implementation of Accounting Guidance


      Liabilities of the Federal Government,” December 20, 1995: “Contingencies
      should be recognized as a liability when a past transaction or event has
      occurred, a future outflow or other sacrifice of resources is probable, and the
      related future outflow or sacrifice of resources is measurable.”

      Work in Process. Although there was no likelihood the DMCs would obtain
      additional revenue to recover unbilled service costs of $18.3 million, the costs
      were carried as Work in Process from FY 1996 into FY 1997 before they were
      written off. The unbilled service costs in excess of expected reimbursements
      were carried forward because Fund managers continued to believe that
      additional revenues could be provided. Accrual accounting guidance indicating
      that the costs of services provided to customers should be expensed when the
      costs were incurred or the services were provided was not followed. As a
      result, Cost of Goods Sold expenses were overstated in FY 1997 and
      understated in FY 1996 by at least $18.3 million.

      The FY 1996 DMCs Working Capital Fund Statement of Financial Position had
      an ending balance of $21.8 million in Work in Process. Note No. 9 in the
      FY 1996 Notes to the Consolidated Principal Statements specified “It is
      anticipated that the DOD Comptroller will direct a write-off of all but
      $3.5 million of the Work in Process.” The only revenue received in FY 1997
      with regard to the Work in Process balance from FY 1996 was, as ex ected, the
      amount associated with the $3.5 million in service costs. The entire P21.8
      million Work in Process balance from FY 1996 was written off in FY 1997.

      Accrual accounting guidance for expenses in DOD Regulation 7000.14-R,
      volume 4, “Accounting Policy and Procedures,” chapter 16, “Revenues,
      Expenses, Gains, and Losses, n January 1995, provides that “Expenses and
      losses are the use of resources during an accounting period in carrying out
      DOD’S mission, These can result from rendering services, delivering or
      producing goods, or carrying out other activities.”

      Accrual of Sick Leave. Accrued sick leave for CISA employees was included
      in the Annual Accrued Leave account and expensed through the Cost of Goods
      Sold account. In accruing sick leave on the facial  statements, Fund
      managers did not follow the most current accounting guidance. As a result, the
      Cost of Goods Sold expenses were overstated by $6.8 million.

      Accounting guidance at DOD Regulation 7000.14-R, volume 6, chapter 6,
      Appendix G, indicates “Sick and other types of nonvested leave are expensed as
      taken. n

      Conclusions. The accounting guidance was not followed in each of the above
      areas. Recognizing a Contingent Liability in the circumstances described was
      not justified during either FY 1996 or FY 1997. The unbilled service costs in
      excess of expected reimbursements carried in Work in Process from FY 1996 to
      FY 1997 should have been expensed in FY 1996. Sick leave should be
      expensed as taken.

      Correcting Contingent Liability balances on the FY 1997 CISA WCF and DISA
      Defense-Wide WCF Financial Statements requires adjustments to reflect an
      increase to Cost of Goods of $21.6 million, a $28.5 million reduction to the
      Contingent Liability balance, and a prior period adjustment to reduce expenses


                                          20
                            Finding C. Implementation of Accounting Guidance


    by $50.1 million. Correcting Work in Process balances on the FY 1997 DMCs
    and DISA Defense-Wide WCF Financial Statements requires an $18.3 million
    reduction in the Cost of Goods Sold and a prior period adjustment to increase
    expenses by $18.3 million. Correcting Accrued Annual Leave balances on the
    FY 1997 CISA and DISA Defense-Wide WCF Statements requires a reduction
    of $6.8 million in the Cost of Goods Sold also in the Accrued Annual Leave
    balance.


Recommendations for Corrective Action
    C. We recommend that the Director, Defense Information Systems Agency:

            1. Implement accounting guidance with regard to contingent liabilities,
    service costs, and accrual of sick leave expenses.

           2.a. Correct the FY 1997 Defense Information Systems Agency
    Defense-Wide Working Capital Fund Financial Statements to reflect a reduction
    to Cost of Goods Sold of $3.5 million, a $28.5 million reduction to the
    Contingent Liability balance, a $6.8 million reduction to the Accrued Annual
    Leave balance, and a prior period adjustment to reduce expenses by
    $3 1.8 million.

             b. Correct the FY 1997 Communications Information Services
    Activity Financial Statements to reflect an increase to the Cost of Goods Sold of
    $14.8 million, a $28.5 million reduction to the Contingent Liability balance, a
    $6.8 million reduction to the Accrued Annual Leave balance, and a prior period
    adjustment to reduce expenses by $50.1 million.

             c. Correct the FY 1997 Defense Megacenters Working Capital Fund
    Financial Statements to reflect a reduction to the Cost of Goods Sold of
    $18.3 million, and a prior period adjustment to increase expenses by
    $18.3 million.


Management Comments Required
    The Defense Information Systems Agency did not comment on a draft of this
    report. We request the agency to provide comments on the final report.




                                       21
Part II - Additional Information
Appendix A. Audit Process

Scope
    Statements Reviewed. We audited the Defense Information Systems Agency
    Working Capital Fund (the Fund) Financial Statements for the year ending
    September 30, 1997. The financial statements included the Statement of
    Financial Position, the Statement of Operations and Changes in Net Position,
    and the Statement of Cash Flows. Also included were the Footnotes and the
    Overview to the Principal Statements. Except for the Overview, the Defense-
    wide statements and accompanying data were consolidations of data also
    presented for each of two DISA WCF subgroups, the DMCs and the CISA. We
    received the financial statements and Footnotes on December 23, 1997, the
    Overview on December 3 1, 1997, and the program performance data on
    January 9, 1998.

    Auditing Standards. We conducted our financial audit in accordance with
    generally accepted auditing standards issued by the Comptroller General of the
    United States as implemented by the IG, DOD, and OMB Bulletin No. 93-06, as
    amended by OMB Bulletin No. 97-01. Those standards require financial
    statements to be free of material misstatements. We relied on the guidelines
    suggested by the General Accounting Office and on our professional judgment
    in assessing the materiality of matters impacting the fair presentation of the
    financial statements and related internal control weaknesses.

    Accounting Principles. Accounting principles and standards for the Federal
    Government are under development. The Federal Accounting Standards
    Advisory Board was established to recommend Federal accounting standards to
    three officials for approval. Those three officials are the Director, OMB; the
    Secretary of the Treasury; and the Comptroller General of the United States.
    Specific standards agreed on by those officials are issued by the Director, OMB,
    and the Comptroller General.

    To date, seven accounting standards and two accounting concepts have been
    published in final form. Another accounting standard (No. 8) has been
    approved by the Federal Accounting Standards Advisory Board, but it must be
    reviewed by Congress before it is issued by OMB. In addition, the Federal
    Accounting Standards Advisory Board issued an exposure draft, “Amendments
    to Accounting for Property, Plant, and Equipment,” February 13, 1998,
    proposing amendments to Standards No. 6 and No. 8. These standards and
    concepts constitute generally accepted accounting principles for the Federal
    Government. OMB Bulletin No. 94-01, as amended by OMB Bulletin
    No. 97-01, incorporates these standards and concepts and should be used by
    Federal agencies to prepare their facial   statements. The following table lists
    the “Statements of Federal Financial Accounting Standards and Concepts. ”




                                       25
        Statements of Federal Financial Accounting Standards and Concepts

   Accounting
    Standards                                                          Fiscal Year
  and Concerts                      Title                               Effective

 Standard No. 1     Accounting for Selected Assets and       Final        1994
                     Liabilities, March 30, 1993

 Standard No. 2     Accounting for Direct Loans and          Final        1994
                     Loan Guarantees, August 23, 1993

 Standard No. 3     Accounting for Inventory and Related     Final        1994
                     Property, October 27, 1993

 Standard No. 4     Managerial Cost Accounting Concepts      Final        1998
                     and Standards, July 3 1, 1995

 Standard No. 5     Accounting for Liabilities of the        Final        1997
                     Federal Government, December 20,
                     1995

 Standard No. 6     Accounting for Property, Plant, and      Final’       1998
                     Equipment, November 30, 1995

 Standard No. 7     Accounting for Revenue and Other         Final        1998
                     Financing Sources, May 10, 1996

 Standard No. 8     Supplementary Stewardship Reporting,   Approved*
                     June 11, 1996

 Concept No. 1      Objectives of Federal Financial          Final
                     Reporting, September 2, 1993

 Concept No. 2      Entity and Display, June 6, 1995         Final

 Ihe Financial Accounting Standards Advisory Board has issued an exposure draft,
 Amendments to Accounting For Property, Plant, and Equipment, n February 13, 1998. The
 xposure draft contains proposed amendments to Standards No. 6 and No. 8.

Through FY 1997, agencies were required to follow the hierarchy of accounting
principles outlined in OMB Bulletin No. 94-01, as amended by OMB Bulletin
No. 97-01. A summary of the FY 1997 hierarchy follows:

        l   standards agreed to and published by the Director, OMB; the
            Secretary of the Treasury; and the Comptroller General of the United
            States;

        l   requirements for form and content in OMB Bulletin No. 94-01, as
            amended by OMB Bulletin No. 97-01;




                                        26
                                                        Appendix A. Audit Process


           l   accounting standards contained in agency accounting policy,
               procedures, or other guidance as of March 29, 1991; and

           l   accounting principles published by other authoritative sources.

    Overview and Performance Measures. We also reviewed the financial
    information in the Overview to the FY 1997 Fund’s Financial Statements. We
    did not find any instances in which the information presented in the Overview
    was materially inconsistent with the information presented in the Principal
    Statements. The information has not been audited by us; accordingly, we are
    not expressing an opinion. The performance measure data was not reviewed.

    Review of Internal Controls. An audit examines, on a test basis, evidence
    supporting the amounts and disclosures in financial statements, including the
    accompanying notes. An audit also assesses the accounting principles used and
    significant estimates made by management, as well as evaluating the overall
    presentation of the statements. We reviewed internal controls related to the
    FY 1997 Fund’s Financial Statements. For areas where internal controls were
    determined to be weak, we attempted to perform tests to determine the level of
    assurance that could be placed on these controls.

    Our consideration of the internal controls would not necessarily disclose all
    matters in the internal controls that might be reportable conditions and would
    not necessarily disclose all reportable conditions that are also considered to be
    material weaknesses.

    Review of Compliance With Laws and Regulations. Compliance with laws
    and regulations is the responsibility of the Fund managers. To obtain
    reasonable assurance that the Fund financial statements were free of material
    misstatements, we performed tests of compliance with laws and regulations that
    may directly affect the financial statements and other laws and regulations
    designated by the OMB and DOD. See Appendix E for a list of laws and
    regulations reviewed.


Methodology
    Computer-Processed Data. To achieve the overall audit objective, we initially
    relied upon computer-processed data obtained from the Defense Property
    Accountability System and the Performance Asset Management system. The
    data was used as a basis for our sampling of the capital property inventory. We
    assessed the reliability of the computer-processed data by reviewing the general
    systems controls and by performing the inventory. The computer-processed
    information provided was found to be generally reliable.

    Statistical Sampling Methodology. The Quantitative Methods Division, IG,
    DOD, developed the statistical sampling plan for this audit. That work included
    statistically selecting locations and inventory line items at each location. The
    audit universe consisted of all DISA Working Capital Fund capital property as
    of September 30, 1997. We followed the sampling plan while performing
    inventories. However, since the reasons underlying our disclaimer of opinion


                                        27
Annendix A. Audit   Process



      existed independently of statistical projections of inventory results, we chose not
      to proceed with such projections. From the inventories we were able to
      determine the equipment quantities data were generally accurate for the items
      sampled.

      Audit Period and Locations. We conducted this audit from May 1997 through
      April 1998 at various DISA operating and equipment locations and at the
      Defense Finance and Accounting Service locations in Cleveland and Pensacola.

      Representation Letters. We received a management representation letter from
      the Director, DISA, and the Chief Financial Officer, DISA. The letter
      acknowledged that they could not provide assurances regarding the accuracy of
      the Accounts Receivable and Accounts Payable balances shown in the financial
      statements. See Appendix D for the management representation letter.

      Contacts During the Audit. We visited or contacted individuals and
      organizations within the DOD. Further details are available upon request.


Management Control Program
      DOD Directive 5010.38, and DOD Instruction 5010.40, require DOD
      organizations to implement a comprehensive system of internal controls that
      provides reasonable assurance that programs are operating as intended and to
      evaluate the adequacy of controls.

      Scope of Review of the Management Control Program. We reviewed the
      adequacy of the Fund’s internal controls as they relate to the Fund’s financial
      statements. Specifically, we reviewed Fund management controls over
      recording, accounting, and reporting financial information resulting from Fund
      operations during FY 1997.

      Adequacy of Management Controls. The Fund’s internal controls were
      generally adequate; however, material weaknesses were identified in the
      processing and reconciling of undistributed collections and disbursements (and
      their effects on Accounts Receivable and Accounts Payable), and also for
      Property, Plant, and Equipment, along with significant deficiencies with the
      accounting systems in those areas. The officials responsible for management
      controls will receive copies of the report. General Accounting Office Report
      No. AIMD-97-150 (OSD Case 1444) discussed interface problems in the DISA
      implementation of the Defense Property Accountability System.

      Adequacy of Management’s Self-Evaluation. The Annual Statements of
      Assurance of DFAS identified weaknesses in undistributed and unmatched
      cross-disbursing and interfund transactions and in accounting and reporting for
      the Defense Working Capital Funds. The Annual Statements of Assurance of
      the DISA referenced the General Accounting Office report mentioned above but
      did not refer to the lack of reconciliations or audit trails involved with the
      Defense Property Accountability System implementation.




                                          28
Appendix B. Prior Audit Reports

   General Accounting Office Report No. AIMD 97-150 (OSD Case No. 1444),
   “DOD’SApproach to Financial Control Over Property Needs Structure,”
   September 30, 1997, addresses whether DPAS was designed to meet functional
   accounting requirements for general property, plant, and equipment. The report
   states that DPAS can provide financial control and generate information to
   account for most general property, plant, and equipment. However, the report
   states that DOD did not define the roles, responsibilities, and relationships
   among the various DOD entities involved, including the identification of needed
   manual and automated interfaces and related controls. As a result, the
   implementation of DPAS did not ensure financial control and accurate reporting
   of general property, plant, and equipment because DPAS incorrectly interfaced
   with the accounting system. The report recommended the development of a
   concept of operations and a detailed DPAS implementation. In addition, the
   report recommended that the transactions produced by DPAS for updating the
   general ledger should reflect the posting logic for both debit and credit and the
   expansion of DPAS functionality to ensure that transactions meet all current and
   pending requirements related to property found in Federal accounting standards
   and DOD financial management regulations. To resolve implementation
   problems specific to DISA, the report recommended that a request be submitted
   to the DPAS project office to include appropriate additional transaction edits
   required by DISA for general ledger processing, the interface program be
   corrected, and procedures be finalized for reconciliation of DISA general ledger
   accounts for property records, including provisions to ensure that reconciliations
   are timely and general ledger control is maintained over general property, plant,
   and equipment. The Acting Under Secretary of Defense (Comptroller)
   generally concurred with the report findings and recommendations.

   Inspector General, DOD, Report No. 98-135, “Implementation of the
   Defense Property Accountability System,” May 18, 1998, states that the
   implementation of DPAS does not remedy the systemic weakness, “Unreliable
   Financial Reporting of Personal and Real Property,” reported in the DOD
   Annual Statement of Assurance. The audit was unable to review DPAS
   capabilities to support auditable financial statements in compliance with the
   Chief Financial Officers Act and the Government Management Reform Act of
   1994 because DOD had not clarified the scope of the system or addressed the
   integration to related financial systems. The report recommended that the
   Under Secretary of Defense for Acquisition and Technology in coordination
   with the Assistant Secretary of Defense (Command, Control, Communications
   and Intelligence) revise the implementation strategy for DPAS and refer the
   system to the Major Automated Information System Review Council as a special
   interest program. In addition, the report recommended that the Under Secretary
   of Defense for Acquisition and Technology establish an Integrated Product
   Team consisting of the Under Secretary of Defense (Comptroller), Military
   Departments, Defense Finance and Accounting Service, and Defense Logistics
   Agency for continued program management. The report also recommended that
   the Under Secretary of Defense (Comptroller) continue to report as a systemic
   weakness the unreliable financial reporting of personal and real property.
   Management agreed to clarify the scope of the system and continue to report a
   systemic weakness. The remaining issues will be mediated.

                                       29
ADDendix B. Prior Audit ReDorts


      Inspector General, DOD, Report No. 97-006, “Major Accounting and
      Management Control Deficiencies in the Defense Business Operations Fund
      in FY 1995,” October 15, 1996, identifies significant accounting and
      management control deficiencies that prevented the timely development and
      reliable presentation of the DBOF financial statements. The report listed DBOF
      accounting systems as a major category of management control structures.
      Significant management control weaknesses existed in the DBOF accounting
      systems. The report concluded that the management control structure of
      existing accounting systems was so weak that reliable and auditable financial
      statements probably would not be available until at least FY 2002, after DBOF
      has converted from legacy systems to interim migratory systems. DOD senior
      management acknowledged the presence of severe control flaws in the DBOF
      accounting systems and took action to upgrade the systems and eliminate the
      weaknesses. The report contained no recommendations because numerous
      recommendations addressing these issues were made in previous audit reports.

      Inspector General, DOD, Report No. 96-155, “The Defense Information
      Systems Agency General Ledger Military Equipment Account,” June 10,
      1996, analyzes the DISA Appropriated Equipment in Use account. The report
      scope did not include the DISA Working Capital Fund, real property or
      property accountability; however, it does state that there were major differences
      between the general ledger account and the DPAS property records for several
      sample items. Since DPAS was recently implemented at DNA, the report states
      that further reconciliations between the general ledger account and the property
      accountability record were not performed. The report also notes that one of the
      sample transactions was recorded on both the DISA-appropriated and DISA
      Working Capital Fund general ledgers. This issue was corrected before the
      report was issued; therefore, no recommendation was made.

      Inspector General, DOD, Report No. 96-001, “Defense Business Operations
      Fund-Defense Information Services Organization Financial Statement for
      FY 1994,” October 4, 1995. The audit objective was to determine whether the
      DBOF-DISO Property, Plant, and Equipment balances reported on the
      Statement of Financial Position for FY 1994 were presented fairly in accordance
      with generally accepted accounting principles. The audit found that DISA-
      Western Hemisphere (DISA WESTHEM) did not prepare and present FY 1994
      financial statements for the DBOF-DISO that were accurate or in compliance
      with laws and regulations. Specifically, DISA WESTHEM did not establish
      property records that showed the acquisition value of capital assets, verify that
      Defense Megacenters and legacy sites implemented procedures to reconcile
      capital asset data with property records, use one standard property accounting
      system at the DMCs and legacy sites to record the inventory of Property, Plant,
      and Equipment. The audit also found that DISA WESTHEM did not report
      depreciation expense and related footnotes properly for the FY 1994 facial
      statements for DBOF-DISO. The report recommended establishing procedures
      and controls for the timely and accurate recording of capital assets and for
      reconciling related facial    accounts to the property book system. Additional
      recommendations were made to provide more accounting training for




                                         30
                                             Annendix B. Prior Audit ReDor&

accountable property officers, to implement the DOD standard property
accounting system at DISA WESTHEM, and to correct the depreciation expense
accounting entry. DISA concurred with all recommendations.

Inspector General, DOD Report No. 95-280, “Management Control
Program at Defense Information Systems Agency, Western Hemisphere,”
July 26, 1995, states that DISA and DFAS did not adequately review
accounting system controls. As a result, DFAS and DISA annual reviews of
accounting systems cannot be relied on to verify the adequacy of accounting
system controls needed to ensure the accuracy, completeness, and reliability of
DISA financial statements for FY 1994. The audit recommended that DFAS
and DISA establish a memorandum of agreement to coordinate annual reviews
of accounting system controls to include specifying responsibilities for the
DFAS system manager and DISA system user; train system managers and users
in performing annual reviews of accounting system controls; and document
accounting system controls and related control testing during the reviews. Both
DFAS and DISA generally concurred with the fmding and recommendations,
except for the recommendation to establish a memorandum of agreement to
coordinate annual reviews of accounting system controls. DFAS responded that
existing guidance already required that system managers and users participate in
annual reviews, but agreed to reinforce existing guidance by including selective
users, such as DISA, in each appropriate review.

Inspector General, DOD, Report No. 93-153, “Defense Business Operations
Fund-Communication Information Services Activity Financial Statements
for FY 1992,” August 6, 1993, states that internal control weaknesses for
transactions and events had a direct and material effect on the Principal
Statements. The audit objective was to determine whether the FY 1992
financial statements were presented fairly in accordance with generally accepted
accounting principles for Federal agencies. The audit opinion was that, except
for the effects of scope limitations and noncompliance with laws and regulations
discussed in the report, the Principal Statements presented fairly, in all material
respects, the financial position in accordance with OMB Bulletin No. 93-02,
“Form and Content of Agency Financial Statements. n However, internal
controls did not ensure the accuracy and proper classification of accounts
payable. The DBOF-CISA Comptroller stated that internal control techniques
were implemented to correct the weaknesses. The audit report did not make
any recommendations.




                                     31
Appendix C. Principal Statements, Footnotes,
and Audit Opinion
This appendix (a total of 36 pages) consists of excerpts from the “Defense Information
Systems Agency Working Capital Fund Chief Financial Officer Annual Fmancral
Statement FY 1997, n February 27, 1998. These pages include the Consolidated
Principal Statements, Footnotes to the Principal Statements, and the Audit Opinion. A
complete set of the “Defense Information Systems Agency Working Capital Fund Chief
Financial Officer Annual Financial Statement FY 1997” is available at the following
internet address: http://www.dtic.mil/comptroller/97afs/.




                                          33
               Principal Statements




DEFENSE INFOMATION
   SYSTEMS AGENCY

DEFENSE- WIDE WORXlNG
     CAPITAL FUND

CONSOLIDATED PHNCIPAL
     STATEMENTS
Principal Statements




                       14
                                                                   Principal Statements

Department of Defense
Defense Information Systems Agency - Consolidated Statements
Statement of Financial Position
As of September 30,1997
(Thousands)

ASSETS

1. Entity Assets:
   a. Transactions with Federal (Intragovemmental) Entities:
       (1) Fund Balance with Treasury (Note 2)                       $180,855        $144,658
       (2) Investments, Net (Note 4)                                        0               0
       (3) Accounts Receivable, Net (Note 5)                          432,880         401,924
       (4) Interest Receivable                                              0               0
       (5) Advances and Prepayments                                        80              80
       (6) Other Federal (Intragovernmental) (Note 6)                       9               2
   b. Transactions with Non-FedemI (Governmental) Entities:
       (1) Investments (Note 4)                                             0                 0

       (2) Accounts Receivable, Net (Note 5)                            2,698             16,804
       (3) Credit Program Receivables/ Related
           Foreclosed Property, Net (Note 7)                                0                 0

       (4) Interest Receivable, Net                                         0                  0
       (5) Advances and Prepayments                                     1,378              5,960
       (6) Other Non-Federal (Governmental) (Note 6)                        0                  0
   c. Cash and Other Monetary Assets (Note 3)                               0                  0
   d. Inventory, Net (Note 8)                                               0                  0
   e. Work in Process (Note 9)                                         34,739             21,824
   f. Operating Materials/Supplies, Net (Note 10)                         707                614
   g* Stockpile Materials, Net (Note 11)                                    0                  0
   h. Seized Property (Note 12)                                             0                  0
    i. Forfeited Property, Net (Note 13)                                    0                  0
    j. Goods Held Under Price Support and
       Stabilization Programs, Net (Note 14)                                0                  0
   k. Property, Plant and Equipment, Net (Note 15)                    226,699         305,230
    1. War Reserves                                                         0               0
   m. Other Entity Assets                                                   0               0
   n. Total Entity Assets                                            $880,045        $897,096

2. Non-Entity Assets:
   a. Transactions with Federal (Intragovernmental) Entities:
       (1) Fund Balance with Treasury (Note 2)                             $0                $0
       (2) Accounts Receivable, Net (Note 5)                                0                  0
       (3) Interest Receivable, Net                                         0                  0
       (4) Other (Note 6)                                                   0                  0




The accompanying notes are an integral part of these statements.



                                                            15
      Principal Statements
Department of Defense
Defense Information Systems Agency - Consolidated Statements
Statement of Financial Position
As of September 30,1997
(Thousands)

ASSETS, Continued

2. Non-Entity Assets:
   b. Transactions with Non-Federal (Governmental) Entities:
      (1) Accounts Receivable, Net (Note 5)                                $0         SO
      (2) Interest Receivable, Net                                          0          0
      (3) Other (Note 6)                                                    0          0
   c. Cash and Other Monetary Assets (Note 3)                               0          0
   d. Other Non-Entity Assets                                               0          0
   e. Total Non-Entity Assets                                              SO         SO


3. Total Assets                                                      $880,045   $897,096

LIABILITIES

4. Liabilities Covered by Budgetary Resources:
   a. Transactions with Federal (Intragovernmental) Entities:
       (1) Accounts Payable                                           $19,264   $188,889
       (2) Interest Payable                                                 0          0
       (3) Debt (Note 16)                                                   0          0
       (4) Other Federal (Intragovernmental) Liabilities (Note 17)         21         18
   b. Transactions with Non-Federal (Governmental) Entities:
       (1) Accounts Payable                                           444,392    160,338
       (2) Accrued Payroll and Benefits
           (a) Salaries and Wages                                      10,200    113,230
           (b) AnnuaI Accrued Leave                                    25,023     23,048
           (c) Severance Pay and Separation Allowance                       0          0
       (3) Interest Payable                                                 0          1
       (4) Liabilities for Loan Guarantees (Note 7)                         0          0
       (5) Lease Liabilities (Note 18)                                      0      3,622
       (6) Pensions and Other Actuarial Liabilities (Note 19)               0          0
       (7) Other Non-Federal (Governmental)
           Liabilities (Note 17)                                       28,508     50,100
   c. Total Liabilities Covered by Budgetary Resources:              $527,408   $539,246




The accompanying notes are an integral part of these statements.




                                                           16
                                                                         Principal Statements
Department of Defense
Defense Information Systems Agency - Consolidated Statements
Statement of Financial Position
As of September 30,1997
(Thousands)

LIABILITIES, Continued

5. Liabilities Not Covered by Budgetary Resources:
   a. Transactions with Federal (Intragovernmental) Entities:
       (1) Accounts Payable                                                       $0
       (2) Debt (Note 16)                                                          0
       (3) Other Federal (Intragovernmental) Liabilities (Note 17)                 0
   b. Transactions with Non-Federal (Governmental) Entities:
       (1) Accounts Payable                                                        0
       (2) Debt (Note 16)                                                          0
       (3) Lease Liabilities (Note 18)                                             0
       (4) Pensions and Other Actuarhl Liabilities (Note 19)                  18,040
       (5) Other Non-Federal (Governmental) Liabilities (Note 17)                  0
   c. Total Liabilities Not Covered by Budgetary Resources                   $18,040

6. Total Liabilities                                                        $545,448        $539,246

NET POSITION (Note 20)

7. Balances:
   a. Unexpended Appropriations                                                   $0          $7,455
   b. Invested Capital                                                       412,479         417,985
   c. Cumulative Results of Operations                                       (50.842)        (67,500)
   d. Other                                                                        0               0
   e. Future Funding Requirements                                            (18.040)              0
   f. Total Net Position                                                    $334,597        $357,850

8. Total Liabilities and Net Position                                       $880,045        $897,096
                                                                     >




The accompanying notes are an integral part of these statements.




                                                           17
     Principal Statements
Department of Defense
Defense Information Systems Agency - Consolidated Statements
Statement of Operations and Changes in Net Position
For the Period Ended September 30,1997
(Thousands)

REVENUES AND FINANCING SOURCES

 1. Appropriated Capital Used                                        $31,906      $30,396
 2. Revenues from Sales of Goods and Services
     a. To the Public                                                     412      170,816
     b . Intragovernmental                                          2,449,349    2,587,493
 3. Interest and Penalties, Non-Federal                                     0            0
 4. Interest, Federal                                                       0            0
 5. Taxes (Note 2 1)                                                        0            0
 6. Other Revenues and Financing Sources (Note 22)                     16,288        7,237
 7. Less: Taxes and Receipts Transferred to
    the Treasury or Other Agencies                                          0            0
 8. Total Revenues and Financing Sources                           $2.497.955   $2.795.942

EXPENSES

 9. Program or Operating Expenses (Note 23)                                SO           SO
10. Cost of Goods Sold (Note 24)
     a. To the Public                                                     404      136,23 1
     b. Intragovernmental                                           2,329,091    2,512,373
11. Depreciation and Amortization                                     136,646      143,767
12. Bad Debts and Writeoffs                                                 0           81
13. Interest
     a Federal Financing Bank/Treasury Borrowing                            0            0
     b. Federal Securities                                                  0            0
     c. Other                                                               0            0
14. Other Expenses (Note 25)                                           13,869        4,286
15. Total Expenses                                                 $2,480,010   $2,796,738

16. Excess (Shortage) of Revenues and
    Financing Sources Over Total Expenses
    Before Extraordinary Items                                       $17,945         ($7Oiij
17. Plus (Minus) Extraordinary Items (Note 26)                              0           0
18. Excess (Shortage) of Revenues and
    Financing Sources Over Total Expenses                            $17,945         ($7Otij




The accompanying notes are an integrll part of these statements.




                                                        18
                                                                   Principal Statements
Department of Defense
Defense Information Systems Agency - Consolidated Statements
Statement of Operations and Changes in Net Position
For the Period Ended September 30,1997
(Thousands)

EXPENSES, Continued

19. Net Position, Beginning Balance, as Previously Stated            $357,850        $347,304
20. Adjustments (Note 27)                                             (10.198)         62,090
21. Net Position, Beginning Balance, as Restated                     $347,652        $409,394
22. Excess (Shortage) of Revenues and
    Financing Sources Over Total Expenses                              17,945            ( 706)
23. Plus (Minus) Non Operating Changes (Note 28)                      (3 1.OOO)       (50,748)
24. Net Position, Ending Balance                                     $334,597        $357,850




The accompanying notes are an integral part of these statements.




                                                        19
       Principal Statements
Department of Defense
Defense Information Systems Agency - Consolidated Statements
Statement of Cash Flows
For the Period Ended September 30,1997
(Thousands)

CASH FLOWS FROM OPERATING ACTMTIES

 1. Excess (Shortage) of Revenues and Financing
    Sources Over Total Expenses                                     $17,945          $?%ij


Adjustments Affecting Cash Flow:
 2. Appropriated Capital Used                                       ( 3 1.006)     30,396
 3. Decrease (Increase) in Accounts Receivable                      (33.583)       18,628
 4. Decrease (Increase) in Other Assets                              &02)         (13,859)
 5. Increase (Decrease) in Accounts Payable                         131,161       (72,863)
 6. Increase (Decrease) in Other Liabilities                       (126.267)      137,285
 7. Depreciation and Amortization                                   136,646       143,767
 8. Other Unfunded Expenses                                          31,906        (30,3Oii)

 9. Other Adjustments                                               (12.338)       14,832
10. Total Adjustments                                               $87,187      $221,790

11. Net Cash Provided (Used) by Operating Activities               $105,132      $220,994

CASH FLOWS FROM INVESTING ACTMTIES

12.   Sale of Property, Plant and Equipment                               $0     $132,497
13.   Purchase of Property, Plant and Equipment                     (62.502)     (250,O 11)
14.   Sale of Securities                                                  0              0
15.   Purchase of Securities                                              0              0
16.   Collection of Loans Receivable                                      0              0
17.   Creation of Loans Receivable                                        0              0
18.   Other Investing Cash Provided (Used)                                0              0

19. Net Cash Provided (Used) by Investing Activities                $62.502      (S117,514j

CASH FLOWS FROM FINANCING ACTMTIES

20. Appropriations (Current Warrants)                                     $0            $0
21. Add:
    a. Restorations                                                        0             0
    b. Transfers of Cash from Others                                       0       35,501
22. Deduct:
    a Withdrawals                                                         0              0
    b. Transfers of Cash to Others                                    6,433              0


23. Net Appropriations                                              ($6.433)      $35,501

The accompanying notes are an integral part of these statements.




                                                        20
                                                                    Principal Statements

Department of Defense
Defense Information Systems Agency - Consolidated Statements
Statement of Cash Flows
For the Period Ended September 30,1997
(Thousands)

CASH FLOWS FROM FINANCING ACTIVITIES,                   Continued

24. Borrowing from the Public                                                SO               $0
25. Repayments on Loans to the Public                                         0                0
26. Borrowing from the Treasury and the Federal Financing Bank                0                 0
27. Repayments on Loans from the Treasury and the Federal
    Financing Bank                                                            0                 0

28. Other Borrowings and Repayments                                           0                 0


29. Net Cash Provided (Used) by Financing Activities                    ($6.433)        $35,501

30. Net Cash Provided (Used) by Operating,
    Investing and Financing Activities                                  $36,197        $138,981

31. Fund Balance with Treasury, Cash, and
    Foreign Currency, Beginning                                         144,658             5,677

32. Fund Balance with Treasury, Cash, and
    Foreign Currency, Ending                                           $180,855        $144,658



Supplemental Disclosure of Cash Flow Information:                    1997            1996


33, Total Interest Paid                                                      SO                $0




Supplemental Schedule of Financing and Investing Activity:

34. Property and Equipment Acquired Under
    Capital Lease Obligations                                                $0                $0


35. Property Acquired Under Long-Term Financing
    Arrangements                                                             $0                SO


36. Other Exchanges of Non-cash Assets or Liabilities                        $0                SO




The accompanying notes are an integral part of these statements.




                                                            21
      Principal Statements




The accompanying notes are an integral part of these statements.




                                                        22
                   Footnotes




DEFENSE INFOlUKATION
   SYSTEMS AGENCY


   DEFENSE- WIDE
WORKING CAPITAL FUND


      FOOTNOTES
         TO THE
     CONSOLIDATED
PRIINCIPAL STATEMENTS
Footnotes




            24
                                                                                 Footnotes


 NOTES TO THE FISCAL YEAR 1997 PRINCIPAL STATEMENTS
         DEFENSE-WIDE WORKING CAPITAL FUND
 DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED
           PERIOD ENDING 30 SEPTEMBER 1997


Note 1. Summary of Significant Accounting       Policies:

A. Basis of Presentation:

      These financial statements were prepared to report the financial position and results of
operations of the Department of Defense (DOD), Defense-Wide Working Capital Fund (DWCF),
Defense Information Systems Agency (DISA), Communications Information Services Activity
(CISA) and Defense Megacenters (DMCs), as required by the Chief Financial Officers (CFO) Act
of 1990 and other applicable legislation. The statements were prepared from the books and
records of the activities in accordance with DOD guidance on the form and content of financial
statements as adopted from OMB Bulletin No. 94-01, “Form and Content of Agency Financial
Statements,” and subsequent issues. These statements are prepared net of inn-a-agency
eliminations (i.e., CISA to DMCs).

      The Defense Finance and Accounting Service @FAS)-Cleveland Center prepared these
statements from information contained in DMC trial balances aggregated on the DFAS Central
Data Base System and from information derived from the Finance and Accounting Management
Information System (FAMIS) which supports the CISA. Amounts presented are rounded to the
nearest thousand.

B. Reporting Entity:

      Respective DISA-DWCF entities provide telecommunication and information systems, and
data processing services to DOD and other federal government customers under a revolving fund
concept. In FY 1996, these funds were consolidated into the DWCF and represented by fund
symbol 97X4930.

C. Budgets and Budgetary Accounting:

      The DISA-DWCF is financed on a reimbursable basis designed to provide an effective
means of financing, budgeting, accounting for and controlling resources, as well as the costs of
providing products and services used to support both peace and war time operations.

      DOD expanded the use of business-like financial management practices through the
establishment of the Defense Business Operations Fund @BOF) on October 1, 1991. The DBOF
employed revolving fund principles previously used by industrial and commercial-type activities.



                                                25
Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED

 On December 11,1996, DOD further refined the concept by eliminating the single fund and
established four separate working capital funds. The working capital funds operate using financial
principles which provide improved cost visibility and accountability to enhance business and cash
management, as well as improve the decision making process. In FY 1997, DISA-DWCF
activities recorded an operating gain of $17,945 thousand.


                SALES, COST OF SALES AND EXPENSES
           AND NET OPERATING RESULTS BY ACTIVITY
                         ($ In thousands)

                                              Cost of      Sales           Net Operating
Activity                   Sal es               and Exnenses                   Results

CISA                    $1,996,114              $2,014,644                     ($18,530)

DMC                        681.914                 645.439                       36.475

TOTAL                   $2.678.028              $2.660.083

D. Basis of Accounting:

      Transactions are recorded on a    budgetary and accrual accounting basis. Accrual accounting
recognizes revenue when earned and      recognizes expenses when a liability is incurred, without
regard to receipt or payment of cash.    Budgetary accounting, through unique general ledger
accounts, facilitates compliance with   legal constraints and controls the use of federal funds.

E. Revenues and Other Financing         Sources:

      Reimbursements are recognized as revenue when earned. This revenue is used to offset the
cost of products and services rendered, including an amount to recover the cost of overhead.
The amount of revenue recognized cannot exceed the amount specified in orders from customers.

F. Accounting    for Intra-Governmental      Activities:

       These statements are prepared net of intra-agency eliminations.

G. Funds with the U.S. Treasury and Cash:

       Because cash control for DISA-DWCF entities is maintained by the Defense Logistics
Agency (for all defense agencies), DMC collection and disbursement balances are transferred
from the activity level to the defense agency corporate level at the beginning of each fiscal year
for financial statement preparation purposes. As a result, financial statements at the activity level


                                                   26
                                                                                  Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED

do not reflect cumulative cash balances. CISA’s financial statements do not reflect the close out
of prior year collections and disbursements. Therefore, they contain cumulative cash balances.
Inconsistency between DMC and CISA cash reporting is under review.

H. Foreign Currency:

      Not Applicable.

I. Accounts Receivable:

      Accounts receivable consist of amounts owed to DISA-DWCF activities by other DOD and
non-DOD agencies the majority of which are due from non-DOD agencies. An ongoing review of
outstanding receivables does not support recording an allowance for uncollectible accounts.

J. Loans Receivable:

      Not Applicable.

K Inventories:

       The DMCs are primarily service providers. Therefore, operating supplies are not a
significant cost element.

L. Investments   in U. S. Government    Securities:

      Not Applicable.

M.    Property and Equipment:

     Telecommunication and data processing equipment and software are stated at cost, less
accumulated depreciation computed on a straight-line method over a five year period that begins
when the equipment becomes operational. Routine maintenance is expensed when incurred.

N. Prepaid and Deferred Charges:

      Not Applicable.

0.   Leases:

      Operating leases exist in both the CISA and DMCs and are expensed when incurred. There
are no capital leases related to DISA-DWCF operations.




                                                27
Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED

P. Contingencies:

      For the CBA, a contingent liability (Note 17) in the amount of $28,508 thousand represents
anticipated future costs of the Defense Information Systems Network @ISN) transition.
Telecommunications customers of the Defense Communication System (DCS) programs will
migrate to the DISN as it is brought on line.

Q. Accrued Leave:

      The value of annual leave is increased as earned and reduced as leave is taken. Sick leave is
expensed as taken. For the DMCs, sick leave balances at year end are closed out. For the CISA,
accrued sick leave is not zeroed out for the fiscal year. This accounting treatment is being
reviewed.

R   Equity:

      CISA equity (Note 20) shows a negative position of $58,203 thousand. Major cortributing
factors were: operating loss of $18,530 thousand; prior period adjustment of $8,255 thousand to
reduce fixed assets that were inappropriately coded as capitalized equipment; and other prior
period adjustments (Note 27), which resulted in a total equity reduction of $10,123 thousand.
DMC equity is shown as $410,840 thousand in Note 20. This includes the effect of a positive
$17,706 thousand in “Cumulative Results of Operations”.

S. Aircraft/Ship    Crashes:

     Not Applicable.

T. Treaties for Use of Foreign Bases:

     Not Applicable.

U. Comparative      Data:

     The Principal Statements present comparative data for FY 1997 and FY 1996.




                                                28
                                                                                            Footnotes

DEFENSE INFOFWIATION SYSTEMS AGENCY-CONSOLIDATED

Note 2. Fund Balances with Treasurv (in thousands):

A. Fund and Account Balances:

                                                                    Entity Assets
                                                                        Appro-      Other
                                     Trust          Revolving           priated     Fund
                                     Funds           Funds               Funds      Types        Total

Unobligated Balance Available:
 Available                                  $0                  $0           $0         $0               $0
 Restricted
Reserve For Anticipated
Resources
Obligated (but not expensed)                              $92,794                                  92,794
Unfunded Contract Authority
Unused Borrowing Authority
Working Capital Fund Balances                            88,061                                    88,061
 Treasury Balance                           $0         $180,855              $0 $0               $180,855

B. Other Information:      None


Note 3. Cash, Foreipn Currencv and Other Monetarv Assets (in thousands):
Not applicable.


Note 4. Investments,     Net (in thousands):      Not applicable.


Note 5. Accounts Receivable,      Net (in thousands):


                                    Gc?ssFor Estimated
                                   Amount
                                                          AllJZnce            AllciZnce
                                                                               Method           Amount
                                     Due              Uncollectibles            Used             Due
A. Entity Receivables:
   Intragovernmental                $432,880                          $0                         $432,880
   Governmental                        2,698                                                        2,698


B. Non-Entity
   Receivables:
    Intragovernmental                        $0                       $0                                 $0
    Governmental




                                                     29
Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED

C. Other Information:       DFAS-CL:    Entity Receivables, Intragovernmental, include Intrafhd
Elimination of ($16,733).

Note 6. Other Federal (Intragovernmental)          and Non-Federal   (Governm&tal)     Assets (in
thousands):

A. Other Entity Assets
     1. Intergovernmental
        Advance to US Printing Office for printing service                    $9
        Total                                                                 $9

     2. Governmental

B. Other Information:       None


Note 7. Loans and Loan Guarantees.        Non-Federal      Borrowers (in thousands):
Not applicable.


Note 8. Inventory, Net (in thousands):         Not applicable.


Note 9. Work in Process      (in thousands):

                                          (1)                (2)
                                          Work In
                                          Process            Valuation
                                          Amount             Method
A. Work in Process:
     In House                             $34,739            Actual Cost
     Total                                $34,739

B.    Other Information:    Work in Process (WIP) of $34,739 thousand includes accrued costs
identifiable to a customer but unbillable because of insufficient funding. Of this amount, $32,299
thousand is attributable to DFAS. Discussions with DFAS to resolve this issue are ongoing. The
remaining $2,440 thousand is spread across the spectrum of military departments/defense agencies
and will either be collected as revenue or recognized as a loss during FY 1998 if deemed
uncollectible.




                                                    30
                                                                               Footnotes

DEFENSE INFOFWIATION SYSTEMS AGENCY-CONSOLIDATED

Note 10. Onerating Materials and Sunnlies tOM&S), Net tin thousands):

                                             (1)              (2)            (3)         (4)
                                           OM&S           Allowance        OM&S,     Valuation
                                           Amount         For Losses        Net      Method

A. OM&S Categories:
   1. Held for Use                                 $707               $0      $707   Actual Cost
   2. Held in Reserve for
       Future Use
   3. Excess, Obsolete and
       Unserviceable
       Total                                       $707               $0      $707


B. Restrictions   on operating materials and supplies: None

C. Other Information:    None



Note 11. Stockuile Materials, Net tin thousandsk    Not applicable.


Note 12. Seized Pronerty (in thousands):   Not applicable.


Note 13. Forfeited Pronertv, Net (in thousands):    Not applicable.


Note 14. Goods Held Under Price Sunnort and Stabilization       Proprams, Net (in thousands):
Not applicable.
Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED

Note 15. ProDertv, Plant and Eaukment,       Net (in thousands):
                                  (1)           (2)         (3)                (4)          (5)
                                Depre-                                                      Net
                                ciation       Service     Acquisition     Accumulated      Book
                               Method          Life         Value         Depreciation     Value
Classes of Fixed Assets
A,, Land                                                            $0               $0            $0
B. Structures, Facilities,
    & Leasehold Improvements
C Military Equipment
D, ADP Software                    SL           l-5             72,5 12         49,528       22,984
E.  Equipment                      SL           l-5            851.487         681,087      170,400
    Assets Under Capital Lease
:. Other                           SL           l-5             10,232               528       9,704
    Natural Resources
:* Construction-in-Progress                                    23,611                        23,611
    Total                                                    $957,842         $731,143     $226,699

J. Other Information: For the CISA, ‘Other’ represents funds expended for capital assets
which are not presently installed or operational in any DCS program. Depreciation is recorded
for these assets when they are installed and operational.

        Depreciation expenses occur over a predetermined period (see below). Periodicity is as
follows equipment purchases other than ADPE, 10 years; general-purpose vehicles, ADPE and
telecommunications   hardware and software, 5 years; minor construction, 20 years. For
equipment transferred into a business area, depreciation is based on the remaining book value.
Depreciation of capital equipment is fully reflected in the operating costs and rates.

       For the DMCs, in fourth quarter FY 1996, inventories were converted to the Defense
Property Accounting System @PAS). That conversion was audited and validated by the DISA
Inspector General in their report “Audit of WESTHEM Proposed FYs 1992-1995 Depreciation
Expense Adjustment,” Final Report No. 97-A02, November 5, 1996. FY 1997 depreciation and
capital accounting transaction and balance data was reconciled between DPAS and IFAS at year-
end and were found to be in balance.

*Keys:
         Depreciation Methods                           Range of Service Life
         SL - Straight Line                             l-5      1 to 5 years
         DD - Double-Declining Balance                  6-10     6 to 10 years
         SY - Sum of the Years’ Digits                  1 l-20   11 to 20 years
         IN - Interest (sinking fund)                   >20      Over 20 years
         PR - Production (activity or use method)
         OT - Other (describe)




                                                32
                                                                                   Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED

Note 16. Debt (in thousands):    Not applicable.



Note 17. Other Liabilities (in thousands):

A. Other Liabilities Covered by Budgetary Resources:

                                                    Non-Current      Current
                                                     Liabilities    Liabilities        Total
1. Intragovernmental
   a. Advances-Government                                      $0            $21               $21
   b. Advances-Loans
   c. Progress Payments-WIP-In-House
   d. Progress Payments-Direct Material
   e. Progress Payments-Other Government
   f. Military Labor
   g. Incomplete Voyage Revenue
   h. Undistributed Cash Disbursements
   i. Accrued Reserve Revenue
   j. Miscellaneous Other Liabilities
  Total                                                        $0            $21               $21

                                                    Non-Current      Current
                                                     Liabilities    Liabilities        Total
2. Governmental
   a. Advances-Other                                           $0             $0                $0
   b, Accrued Expenses-Other
   c. Progress Payments-Contractor
   d. Miscellaneous Other Liabilities                                    28,508         28,508
   e. Claims
   f. Undistributed Cash Disbursements
   Total                                                       $0      $28,508         $28,508

B. Other Information: Governmental amount represents a contingent liability established for
anticipated future costs of the DISN transition. Telecommunications customers of DCS programs
will migrate to the DISN as it is brought on line.




                                                   33
Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED

C. Other Liabilities Not Covered by Budgetary Resources:

                                                  Non-Current          Current
                                                   Liabilities        Liabilities          Total
1. Intragovernmental
   a. Canceled Budget Authority                                  $0                 $0              $0
   b.
   C.

   Total                                                         $0

                                                  Non-Current          Current
2. Governmental                                    Liabilities        Liabilities         Total
   a. Canceled Budget Authority                                  $0                 $0              $0
   b.
    C.

    Total                                                        $0                                 $0

D. Other Information:     Not applicable



Note 18. Leases (in thousands):

A. Entity As Lessee: Not applicable.

B. Entity As Lessor: Not applicable.

C. Other Information: Note 18 in the FY 1996 CFO financial statements showed lease data
which was thought to be erroneous but was included until research could be completed. Results
of that research found that DMCs have no capital lease liabilities - current or future. Necessary
expense adjustments were made to the DMC accounts to properly clear the records.

       CISA has operating leases for telecommunications    circuitry on a month-to-month basis and
software/hardware maintenance for current year from commercial providers. In FY 1997, costs
related to operating leases are included in the cost of goods/services sold. Future payment
calculation is not applicable.




                                                 34
                                                                                     Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED

Note 19. Pensions and Other Actuarial Liabilities (in thousands):

A. Workers Compensation
DISA WCF                                                    $18.040
Total                                                       %18.040


B. Other Information:         Future workers’ compensation figures are provided by the Department
of Labor. The liability for future workers’ compensation (FWC) benefits includes the expected
liability for death, disability, medical, and miscellaneous costs for approved compensation cases.
The liability is determined using a method that utilizes historical benefit payment patterns related
to a specific incurred period to predict the ultimate payments related to that period. Consistent
with past practice, these projected annual benefit payments have been discounted to present value
using the Office of Management and Budget’s, June 10, 1997 economic assumptions for IO-year
Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:




                                          6.24 % in year 1
                                          5.82 % in year 2
                                          5.60%inyea.r3
                                          5.45 % in year 4
                                          5.40 % in year 5 and thereafter


Note 20. Net Position (in thousands):

                                             Revolving      Trust     Appropriated
                                              Funds         Funds        Funds            Total
A. Unexpended
   Appropriations:
     1. Unobligated,
      a. Available                                     $0        $0              $0               $0
     b . Unavailable
     2. Undelivered Orders
B. Invested Capital                            4 12,479                                    412,479
C. Cumulative Results of Operations            (59,842)                                    (59,842)
D. Other
E. Future Funding
   Requirements                                (18,040)                                    (18,040)
F. Total                                      $334,597 %o                        $0       $334,597

G. Other Information:       None



                                                  35
Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED

Note 21. Taxes (in thousandsk     Not applicable.



Note 22. Other Revenues and Financine        Sources (in thousands):

                                                            1997                    1996
A. Other Revenues and Financing      Sources:
   1. Other Revenue                                                  $26             $7,237
   2. Imputed Financing Sources                                  16,262
   Total                                                        $16,288              $7,237

B. Other Information: The $16,262 represents the imputed financing for pensions and other
retirements benefits. The Offrce of Personnel Management (OPM) is the administrative entity for
pensions and other retirement benefits (ORB). OPM accounts for and reports the pension liability
in the financial statements while the employer discloses the imputed financing. OPM actuaries
provide the normal cost rates which are used to calculate the imputed financing.

Imputed Pension and Other Retirement Benefits (ORB) (in thousands):
      CSRUFERS Retirement                                 $11,442
      Health                                                 4,825
      Life Insurance                                             15



Note 23. Program or ODeratiw      Exnenses    (in thousands):     Not applicable.


Note 24. Cost of Goods Sold (in thousands):

A. Cost of Services Sold:
    1. Beginning Work-in-Process                                                              $21,824
   2. Plus: Operating Expenses                                                              2,342,410
   3. Minus: Ending Work-in-Process                                                            34,739
   4. Minus: Completed Work for Activity Retention
   Cost of Services Sold                                                                   $2,329,495




                                                36
                                                                                Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED


B. Cost of Goods Sold from Inventory
   (using Latest Acquisition Cost):
   I.   3eginning Inventory - L.A.C:                                                        $0
    2. Less: Beginning Allowance for Unrealized
         Iolding Gains (Losses)
         ‘1”s: Purchases at Cost
    :* ;lus: Customer Returns - Credit Given
    5: ?lus: DLR Exchange Credits
    6. Less: Inventory Losses Realized
    7. Less: Ending Inventory - L.A.C.
    8. ‘1”s: Ending Allowance for Unrealized
         solding Gains (Losses)
    9. iess: Equity Transfers of Inventory to Others
                                                  - _
     10. Plus: Equity Transfers of Inventory from Others
    11. Plus: Other
         a. Repair Cost Adjustment
         b. Beginning Allowance Adjustment from
             Prior Year
    12. Equals: Cost of Goods Sold from Inventory                                           $0

C. Cost of Goods Sold from Inventory (using Historical Cost):
    1. Beginning Inventory
       a. Plus: Purchases at Cost                                                           $0
       b. Plus: Inventory Gains
       c. Minus: Inventory Losses
    2. Less: Ending Inventory
    Cost of Goods Sold                                                                      $0

D. Other Information:     DFAS-CL:     Line A 2 includes Intrafund Eliminations of ($196,335).


Note 25. Other ExDenses (in thousands):

                                                             1997            1996
A. Other Expenses:
    1. Pension, Health, and Life Insurance Benefits          $16,262
   2. Losses on disposition of assets                         (2,393)         $4,286
   Total                                                     $13,869          $4,286

B. Other Information:   This cost credit was based on the costing to FY 1997 of the remaining
NBV of three Encore mid-tier platforms at Oklahoma City, Ogden and Columbus. The cost
should have been charged to the prior period adjustment account so the cost was reversed. See
Note 27.




                                                37
Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED

The $16,262 represents the imputed expense for pensions and other retirement benefits. The
Office of Personnel Management (OPM) is the administrative entity for pensions and other
retirement benefits (ORB). OPM accounts for and reports the pension liability in their financial
statements while the employer discloses the imputed expenses. OPM actuaries provide the
normal cost rates which are used to calculate the imputed expenses.

Imputed Pension and Other Retirement Benefits (ORB) (in thousands):
       CSRS/FERS Retirement                               $11,442
       Health                                               4,825
       Life Insurance                                          15


Note 26. Extraordinarv    Items (in thousands):        Not applicable


Note 27. Prior Period Adiustments      (in thousands):

A. Prior Period Adjustments:
   1. Decrease due to fixed asset adjustments                                           ($8,255)
   2. Decrease of prior period obligations                                               (1,868)
   3. Other prior year adjustments                                                           ( )
        Total                                                                       0

B. Other Information:      The ($8,255) thousand adjustment reported above represents items
inappropriately capitalized. The ($75) thousand adjustment shown above represents the net result
of closing accounting activity on several legacy accounting systems (STANFINS, DBMS,
STARS-FL, GAFS, SABRS, UDAPS-SP and legacy IFAS sites) and the “loss on disposal of
equipment” discussed in Note 25. All accounting for the DMC business area is now on IFAS.


Footnote 28. Non-Operating      Chawes    - (Transfers and Donations) (in thousands):
                                                                      1997            1996
A. Increases:
    1. Transfers-In:
       a. Transfers-Without Reimbursement-DWCF                              $685            $135,692
       b. Transfers-Without Reimbursement-Capital DWCF                   (15,886)

       &expended Appropriations
    :* Donations Received
    4: Other Increases                                                     2,816
    5. Total Increases                                                  ($12,385)           $135,692




                                                  38
                                                                                     Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED


B. Decreases:
    1. Transfers-Out:
     a. Transfers to Govt. Agency Without Reimbursement                                  $134,822
                                                                         $575
      b. Transfers to All Others Without Reimbursement
      c. Transfers to Others Without Reimbursement-DWCF
      d. Transfers to Others Without Reimbursement-Capital
    2. Donations
    3. Other Decreases                                                    18,040           51,618
    4. Total Decreases                                                   $18,615         $186,440

C. Net Non-Operating    Changes (Transfers):                            ($3 1,000)        ($50,748)

D. Other Information:   The ($15,886) credit above is under review by DFAS-Cleveland.



Note 29. Intrafund Eliminations    (in thousands):

Schedule B: The DWCF-CISA sales component reports intrafund transactions (sales and
services) within the overall DISA-DWCF (e.g., sales from CISA to DMCs).

      The DWCF-DMC business area provides information services to the CISA via DITCO and
other DMCs. These services include running applications on an IBM ES9221.


Selling Activity:
                                Column   A                             Column   C
                                Accounts               Column B        Unearned          Column D
                                Receivable              Revenue        Revenue           Collections

Supply Management                            $0                   $0                $0                 $0
Distribution Depot
Depot Maintenance
Transportation Services
Base Support
Research and Development
Information Services                      2,437               29,242                              29,242
Communication Services                   14,296              167,093                             164,290
Financial Services
Commissary Operations
Commissary Resale Stock
Total                                 $16,733              $196,335                 $0        $193,532




                                                  39
                                                                                Footnotes

DEFENSE INFOFWIATION SYSTEMS AGENCY-CONSOLIDATED



Customer Activity:

                              Column A             Column B            Column   C            Column D
                             Accounts Pay          Expenses            Advances            Disbursements
Supply Management                       $0                    $0                    $0                $0
Distribution Depot
Depot Maintenance
Transportation Services
Base Support
Research and Development
Information Services                 14,296            186,198                                      183,395
Communication Services                2,437             10,137                                       10,137
Financial Services
Commissary Operations
Commissary Resale Stock
Total                              $16,733            $196,335                      $0             $193,532

Schedule C: DISA Consolidated    Working Capital Fund Sales to DOD Entities

Selling Activity:
                                 Column A          Column B        Column C         Column D
                                 Accounts                          Unearned
                                 Receivable        Revenue         Revenue        Collections

DISA Consolidated Working            $325,594      $2,087,88 1           $0          $2,05 1,867
Capital Fund
Unearned Revenues
Total                                $325,594      $2,087,88 1           $0          $2,05 1,867

Customer Activity:
                                  Column A         Column B        Column C         Column D
                                  Accounts
                                   Payable         ExDenses        Advances     Disbursements

Department of the Army GF             $49,305        $327,126            $0            $303,134
Department of the Navy GF              34,741         236,247                           227,637
Department of the Air Force GF         59.675         43 5,668                          441,035
Army WCF                                4,991          36,819                            33,756
Air Force WCF                          21,589         230,130                           233,45 1
Defense WCFs                          124.115         661,246                           653,978
Navy WCFs                              191713          901864                            89;841
Other Defense Organizations            11.465          69,78 1                           69,03 5
Total                                $325,594      $2,087,881            $0          $2,051,867




                                              41
Footnotes

DEFENSE INFORMATION SYSTEMS AGENCY-CONSOLIDATED


Schedule D: DISA Consolidated       Working Capital Fund Sales to U.S. Government           Entities

Selling Activity:
                                     Column A           Column B       Column C        Column D
                                     Accounts                          Unearned
                                     Receivable         Revenue        Revenue        Collections

DISA Consolidated Working                 $200,475        $359,558             $0         $368,965
Capital Fund
Total                                     $200,475        $359,558             $0         $368,965

Customer Activity:
                                       Column A         Column B       Column C        Column D
                                       Accounts
                                        Payable         Expenses       Advances      Disbursements

General Services Administration              $3,861          $1,001            $0               $919
State Department                             11,745           8,620                            4,744
Federal Aviation Agency                     114.619         304,945                         3 16,142
Department of Interior                          876           1,631                            2,113
Department of Treasury                        4.607             862                            2,312
NASA                                            462             615                              259
U.S. Coast Guard                              2,968          12,814                           12,682
U.S. Department of Agriculture                2.541           1,062                               47
Other U.S. Government Entities               58.626          27,788                          29,689
Department of Transportation                    170             220
Total                                      $200,475        $359,558            $0          !§368,9::


Note 30. Contingencies:     See Note 17.


Note 31. Other Disclosures:         At September 30, 1997 the cumulative differences between the
Megacenter activities’ and Treasury collections and disbursements were approximately $100
million and $500 million respectively, netting to an overall variance of $400 million. DFAS-
Cleveland determined during the current fiscal year that approximately $300 million of cross-
disbursements were not recorded at the activity level since fiscal year 1994. Liabilities related to
these disbursements can not be identified at this time. Therefore, the status of obligations,
expenses, and liabilities related to these disbursements is undetermined at this time. DFAS-
Cleveland is in the process of working with Operation Location Pensacola, DISA and the other
DFAS centers in resolving the cross-disbursement issue. This issue will be resolved in fkal year
1998.




                                                  42
                   Audit Opinion




DEFENSE INFOMATION
   SYSTEMS AGENCY

DEFENSE-WIDE WORKlNG
    CAPITAL FUND

   AUDIT OPINION
      Audit Opinion




110
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                     ARLINGTON, VIRGINIA 22202




                                                                                February 27, 1998

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER) AND
                 CHIEF FINANCIAL OFFICER
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               DIRECTOR, DEFENSE INFORMATION SYSTEMS AGENCY

SUBJECT:      Disclaimer of Opinion on the Defense Information Systems Agency
             Defense-Wide Working Capital Fund Financial Statements for FY 1997
             (Project No. 8FH-2003)


         The Chief Financial Officers (CFO) Act of 1990, as amended by the Federal Financial
Management Act of 1994, requires financial statement audits by the Inspectors General and
prescribes the responsibilities of management and auditors for the financial statements, internal
controls, and compliance with laws and regulations. Fund managers are responsible for
establishing and maintaining an internal control structure and for complying with laws and
regulations applicable to the Defense Information Systems Agency Defense-Wide Working
Capital Fund (the Fund). Our responsibility is to render an opinion on the financial statements
based on our audit, and to determine whether internal controls are adequate and whether the
Fund complied with applicable laws and regulations.

          Before FY 1992, the DOD operated a significant number of commercial and industrial
facilities under a revolving fund concept. In FY 1992, the revolving funds were consolidated
to form the Defense Business Operations Fund (DBOF). The Inspector General, DOD, was
responsible for auditing and rendering an opinion on the DBOF consolidated financial
statements. In December 1996, the Under Secretary of Defense (Comptroller) restructured the
DBOF into separate working capital funds. The Inspector General, DOD, is responsible for
auditing and rendering an opinion on the financial statements, for FY 1997 and subsequent
years, of the working capital fund reporting entities formerly reported under the DBOF.

          Disclaimer of Opinion. We were unable to render an opinion on the Fund’s
Consolidated Financial Statements for FYs 1997 and 1996. Deficiencies in DOD accounting
systems resulted in substantial undistributed collections and undistributed disbursements for the
Defense Megacenters. The undistributed amounts were allocated to the Accounts Receivable
balance (49 percent of total assets) and the Accounts Payable balance (85 percent of total
liabilities). As a result, significant portions of the balances were unverifiable. In addition, we
were unable to reconcile the beginning and ending consolidated balances for the Property,
Plant, and Equipment account (26 percent of total assets). We requested that Defense
Information Systems Agency personnel review the financial statement balances and explain
changes. Personnel were unable to reconcile the changes shown on the fmial           statements
with the beginning and ending balances. The Defense Information Systems Agency Financial
Statements for 19% were not reviewed.

       Accounting Principles. The Fund’s financial statements for FYs 1997 and 1996 were to
be prepared in accordance with Office of Management and Budget (OMB) Bulletin No. 94-01,
“Form and Content of Agency Financial Statements,” November 16, 1993, as supplemented by
OMB Bulletin No. 97-01, “Form and Content of Agency Financial Statements,” October 16,
                                                                                                 2

1996. These Bulletins incorporate the Statements of Federal Financial Accounting Concepts and
Standards recommended by the Federal Accounting Standards Advisory Board, which are
approved by the Secretary of the Treasury; the Director, OMB; and the Comptroller General of
the United States. Footnote 1 of the Fund’s financial statements discusses the significant
accounting policies that the Defense Information Systems Agency followed in preparing the
financia statements.
       Internal Controls. We reviewed the internal control structure of the Fund and
obtained an understanding of the internal control policies and procedures. In addition, we
reviewed the implementation of the management control program by the Fund managers. We
performed applicable tests of the internal control structure to determine whether the controls
were effective and working as designed.
       The internal control structure needs improvements in accounting for and managing
resources, ensuring compliance with laws and regulations, and ensuring that the tInancial
statements are free of material misstatements. For exam le, management needs to strengthen
internal controls over the tracking of property, plant, anB quipment. The Annual Statements
of Assurance of the Defense Informatton Systems Agency did not identify any material
weaknesses in accounting or financial reporting. However, the Annual Statements of
Assurance of the Defense Finance and Accounting Service identified material weaknesses in
undistributed and unmatched cross-disbursing and interfund transactions and in accounting and
reporting for the Defense Working Capital Funds.
        Compliance With Laws and Regulations. We assesxd compliance with laws and
regulations related   the financial                                    complied with
                                                 is needed        $5          in contingent
liabilities                                                    and in accounting for the
unbillable costs of services for the Defense Megacenters. Proposed adjustments in the areas
mentioned would have a material impact on the financial statements. In addition, under the
Federal Financial Management Improvement Act of 1996 and OMB Bulletin No. 93-06,
Addendum 1, ‘Audit Requirements for Federal Financial Statements,” January 16,1998, our
work disclosed that tinancial management s stems did not comply with Federal financial
management system requirements; applicabre Federal accounting standards; and the U.S.
Government Standard General Ledger at the transaction level.



                                             David K. Steesma
                                      Deputy Assistant Inspector General
                                                for Auditing
Appendix D. Management and Legal
Representation Letters
This appendix (a total of six pages) consists of the management and legal representation
letters for the FY 1997 DISA Working Capital Fund Financial Statements.




                                           35
                                 DEFENSE   INFORMATION           SYSTEMS AGENCY
                                                701 S. COURTHOUSE ROAD
                                             ARLINGTON, VIRGINIA 22204-2199




IN REPLY

REfERTQ
     Comptroller           (DC)                                                 27 February     1998



            MEMORANDUM    FOR ASSISTANT       INSPECTOR         GENERAL       FOR AUDITING,     DOD

            SUBJECT:             Representation    Letters for FY 1997                Defense
                                 Information   Systems Agency Working                 Capital    Fund
                                 Financial   Statements

            Reference:           DODIG   Memo,   subject        as above,       6 January     1998


            1.   In response to your memorandum,    same subject, we are
            providing   you with the requested representation    letters and a
            synopsis of our responses     to your audit questions.    Our account-
            ing processes    are based on and conform to Office of Management
            and Budget    COMB) Bulletin No. 94-01, "Form and Content of Agency
            Financial   Statements,"   16 November 1993, and applicable   portions
            of OMB Bulletin No. 97-01, same title, 16 October 1996.        We
           -confirm,   to the best of our knowledge and belief, the following
            representations    made to you during the audit.

                 a.   We are responsible    for the fair representation  of the
            FY 1997 Defense Information      Systems Agency Working Capital Fund
            Financial   Statements   in accordance  with OMB Bulletin No. 94-01
            and applicable    portions of OMB Bulletin No. 97-01.

                 b.    We have    made   available       to you       all financial     records        and
            related    data.

                 C.  We can provide reasonable  assurance that the accounting
            and non-accounting   systems used to produce the financial
            statements  are reliable.

                 d.  We have no plans or intentions,   other than those
            previously  disclosed to you, that may materially   affect the
            carrying value or classification   of assets and liabilities.

                 e.   There have     been no irregularities  involving management                            of
            employees   who have     significant  roles in the internal control
            structure.

                   f. No other employees   have been involved in irregularities
            that    could materially affect the financial statements.

                 9-- We have received no communications     from regulatory
            agencies or auditors concerning    noncompliance   with, or deficien-
            cies in, financial  reporting practices    that could have a material
            effect on the financial   statements.



                                     Quality Information for a Strong Defense
DISA Memo, DC, Representation  Letters for FY 1997 Defense
Information Systems Agency Working Capital Fund Financial
Statements

    h.   There are no indications   of possible violations  of laws
or regulations  to be disclosed   in the financial statements  or
used as a basis for recording a loss contingency.

     i.   There are no other material liabilities,     gain or loss
contingencies    that are required to be accrued or disclosed     by
Statement   of Federal Financial Accounting   Standard    (SFFAS) No.5
"Accounting    for Contingencies," December 1995.

     5   There are no unasserted  claims or assessments  that our
legal representatives  have advised us must be disclosed   in
accordance  with SFFAS No. 5.

    k.   There   are no improperly  recorded material   transactions     in
the accounting    records or financial statements.

     1. The Department of Defense has satisfactory  title to all
assets, and there are no liens or encumbrances  on such assets,
nor has any asset been pledged.

     m.  No events have occurred after the balance sheet date that
would require adjustments  to, or disclosure in, the financial
statements.

     n.  We cannot attest to the accuracy of certain account
balances   (e.g, negative accounts payable and accounts receivable)
provided by DFAS and used by us to prepare the financial
statements.

     0.  All adjustments   made to account balances by the
responsible  activity,   the Defense Finance and Accounting   Service,
are fully documented    and were made in accordance  with applicable
accounting  standards.

2.   If you have   any questions  regarding this memorandum,    please
contact Stewart    Petchenick  at (703) 607-6400.
                         DEFENSE   INFORMATION           SYSTEMS        AGENCY
                                        701 S COURTHOUSE ROAD
                                     ARLINGTON. VIRGINIA 22204.2199




k%%   Regulatory/General     Counsel                                         27 February      1998



      Mr. Jay Lane
      Director,  Finance and Accounting   Directorate
      Office of the Assistant   Inspector General for Auditing
      Department  of Defense Information   Systems Agency
      400 Army Navy Drive
      Room 944
      Arlington,  VA 22202-2884

      Dear Mr.   Lane:

      In accordance   with your instructions     concerning  the DODIG audit
      of FY1997 Defense Information      Systems Agency Working Capital
      Fund financial   statements   (Project No. 8FH-2003),    be advised
      that there are no material     claims or assessments,    pending,
      threatened  or unasserted   against the DISA Working Capital Fund,
      which, in my professional     judgement and under the instructions,
      should be disclosed    or considered    for disclosure  in DISA's
      financial  statements.

      If you have any questions   regarding this                      information,   please
      contact the undersigned   at 703-607-6759.




                                                General        Counsel




                             Quality Information for a Strong Defense
Appendix E. Laws and Regulations Reviewed
   Public Law 104-208, “Federal Financial Management Improvement Act of
   1996,” September 30, 1996

   Public Law 103-356, “Government Management Reform Act of 1994,”
   October 13, 1994 (Federal Financial Management Act of 1994)

   Public Law 101576, “Chief Financial Officers Act of 1990, n
   November 15, 1990

   Public Law 97-255, “Federal Managers Financial Integrity Act of 1982,”
   September 8, 1982

   OMB Bulletin No. 98-04, “Addendum to OMB Bulletin No. 93-06,”
   January 16, 1998

   OMB Bulletin No. 97-01, “Form and Content of Agency Financial Statements,”
   October 16, 1996

   OMB Bulletin No. 94-01, “Form and Content of Agency Financial Statements,”
   November 16, 1993

   OMB Bulletin No. 93-06, “Audit Requirements for Federal Financial
   Statements,” January 8, 1993

   Federal Accounting Standards Advisory Board Statement of Federal Financial
   Accounting Standards No. 5, “Accounting for Liabilities of the Federal
   Government, n December 20, 1995

   DOD 7000.14-R, “DOD Financial Management Regulation,” volume 6,
   “Reporting Policy and Procedures,” January 1998

   DOD 7000.14-R, “DOD Financial Management Regulation, n volume 4,
   “Accounting Policy and Procedures,” January 1995

   DOD 7000.14-R, “DOD Financial Management Regulation,” volume 1 lB,
   “Reimbursable Operations, Policy and procedures - Defense Business
   Operations Fund,” December 1994

   DOD 7000.14-R, “DOD Financial Management Regulation, n volume 1,
   “General Financial Management Information, Systems, and Requirements,”
   May 1993

   DOD Directive 5010.38, “Management Control Program,” August 26, 1996

   DOD Instruction 5010.40, “Management Control Program Procedures,”
   August 28, 1996




                                     37
Appendix F. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency

Non-Defense Federal Organizations
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
   General Accounting Office




                                           39
Non-Defense Federal Organizations (cont’d)
Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Government Reform and Oversight
  House Committee on National Security




                                         40
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of
the Assistant Inspector General for Auditing, Department of Defense.

F. Jay Lane
David F. Vincent
John A. Richards
Ronald L. Smith
Jermaine D. Lassiter
Frank C. Sonsini
Lusk Penn
Angela D. Clayton
